<html>
<title> - PANDEMIC RESPONSE: CONFRONTING THE UNEQUAL IMPACTS OF COVID-19</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


     PANDEMIC RESPONSE: CONFRONTING THE UNEQUAL IMPACTS OF COVID-19

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                             JULY 10, 2020
                               __________

                           Serial No. 116-74
                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
43-191 PDF                WASHINGTON : 2021   
                              



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

               Donald M. Payne Jr., New Jersey, Chairman
Cedric Richmond, Louisiana           Peter T. King, New York, Ranking 
Max Rose, New York                       Member
Lauren Underwood, Illinois           Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Donald M. Payne Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                               Witnesses

Dr. Georges C. Benjamin, M.D., Executive Director of the American 
  Public Health Association:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Dr. Leana Wen, M.D., Visiting Professor of Health Policy And 
  Management, George Washington University Milken Institute 
  School of Public Health:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Chauncia Willis, Co-Founder and Chief Executive Officer, 
  Institute for Diversity and Inclusion in Emergency Management:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20

                             For the Record

The Honorable Donald M. Payne Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Statement of Joycelyn Elders, MD, 15th U.S. Surgeon General, 
    and Co-Chair, African American Health Alliance (AAHA)........    44

                                Appendix

Questions From Chairman Donald M. Payne, Jr. for Georges Benjamin    51
Questions From Chairman Donald M. Payne, Jr. for Leana Wen.......    51
Questions From Chairman Donald M. Payne, Jr. for Chauncia Willis.    51

 
     PANDEMIC RESPONSE: CONFRONTING THE UNEQUAL IMPACTS OF COVID-19

                              ----------                              


                         Friday, July 10, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Emergency Preparedness, 
                                    Response, and Recovery,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12:20 p.m., 
via Webex, Hon. Donald M. Payne, Jr. (Chairman of the 
subcommittee) presiding.
    Present: Representatives Payne, King, Thompson, Richmond, 
Rose, Underwood, Green, and Bishop.
    Also present: Representative Jackson Lee.
    Mr. Payne. Subcommittee on Emergency Preparedness, 
Response, and Recovery will come to order.
    Good afternoon, and thank you for joining us today. First, 
I would like to say my thoughts are with those who have lost 
loved ones from the COVID-19 pandemic.
    Also, with Tropical Storm Fay making its way through the 
northeast, I hope everyone is staying safe.
    Our Nation is facing a crisis of unprecedented proportions. 
The novel corona pandemic has already infected over 3 million 
and killed over 100,000 Americans. The scale of the loss is 
staggering, and efforts to produce a life-saving vaccine 
continue, but not all Americans have been impacted equally. 
Communities of color are not only more likely to be infected by 
the COVID-19, but they are also more likely to be killed by the 
virus.
    In my home State of New Jersey, African Americans 
disproportionately make up the COVID-19 fatalities. This 
disturbing trend is observed not only in New Jersey, but also 
across the Nation. Data from the CDC shows that African 
Americans and Hispanic populations are three times more likely 
to be infected and twice as likely to die from COVID-19 than 
White population.
    This administration's response to the outbreak has been an 
utter failure on a multitude of levels. Nowhere is this more 
acute than in its neglect of minority health.
    Since the onset of the outbreak, it has been clear that 
communities of color are disproportionately impacted. However, 
the impacts on these communities have been obscured by critical 
data gaps. Even with this knowledge, the administration has 
been painfully slow in setting requirements for collection of 
racial and ethnic demographic information of COVID-19 
infections. The example is just one of many that demonstrate 
the administration's lackluster outbreak response, especially 
when it comes to minority health.
    Even CDC director Dr. Robert Redfield admitted the failures 
of the administration to collect demographic information on 
COVID-19 infections and deaths, is an apology at another 
Congressional hearing--made that apology at another 
Congressional hearing last month. I would say, Dr. Redfield, 
that the American people need more than that.
    While much of the focus of the administration's response to 
minority health during the pandemic is centered around the 
Department of Health and Human Services, the Department of 
Homeland Security's Federal Emergency Management Agency, FEMA, 
is playing a vital role as the lead Federal agency for 
response. Americans are counting on FEMA to get it right.
    Unfortunately, FEMA has had costly missteps in the past 
when it comes to not factoring in the needs of communities of 
color, and the researchers have continuously found that FEMA's 
recovery programs exacerbate existing disparities. While these 
disparities long precede COVID-19, the effect they are having 
on minority communities is a National emergency in itself--one, 
I worry about FEMA is not doing enough to meet. As we speak, 
lives are being lost in the country to long-standing health 
inequities, and that is unacceptable.
    At today's hearing, I hope we can explore this problem and 
hear potential solutions from our panel of experts.
    [The statement of Chairman Payne follows:]
               Statement of Chairman Donald M. Payne, Jr.
                             July 10, 2020
    Our Nation is facing a crisis of unprecedented proportions. The 
novel coronavirus pandemic has already infected over 3 million and 
killed well over 100,000 Americans. The scale of loss is staggering and 
efforts to produce a life-saving vaccine continue. But not all 
Americans have been impacted equally.
    Communities of color are not only more likely to be infected by 
COVID-19, but they are also more likely to be killed by the virus. In 
my home State of New Jersey, African Americans disproportionately make 
up the COVID-19 fatalities. This disturbing trend is observed not only 
in New Jersey but also across the Nation. Data from the CDC shows that 
African Americans and Hispanic populations are 3 times as likely to be 
infected and twice as likely to die from COVID-19 than white 
populations. This administration's response to the outbreak has been an 
utter failure on multiple levels. Nowhere is this more acute than in 
its neglect of minority health.
    Since the onset of the outbreak, it has been clear that communities 
of color are disproportionately impacted. However, the impacts on these 
communities have been obscured by critical data gaps. Even with this 
knowledge, the administration has been painfully slow in setting 
requirements for the collection of racial and ethnic demographic 
information on COVID-19 infections.
    This example is just one of many that demonstrate the 
administration's lackluster outbreak response, especially when it comes 
to minority health. Even CDC director Dr. Robert Redfield admitted the 
failures of the administration to collect demographic information on 
COVID-19 infections and deaths in an apology at another Congressional 
hearing last month. I would say to Dr. Redfield that the American 
people need more than that.
    While much of the focus of the administration's response to 
minority health during the pandemic is centered around the Department 
of Health and Human Services, the Department of Homeland Security's 
Federal Emergency Management Agency (FEMA) is playing a vital role as 
the lead Federal agency for response. Americans are counting on FEMA to 
get it right.
    Unfortunately, FEMA has had costly missteps in the past when it 
comes to not factoring in the needs of communities of color and 
researchers have continuously found that FEMA's recovery programs 
exacerbate existing disparities. And while these disparities long 
precede COVID-19, the effect they are having on minority communities is 
a National emergency in itself--one I worry that FEMA is not doing 
enough to meet.
    As we speak lives are being lost in the country to long-standing 
health inequities and that is unacceptable. At today's hearing, I hope 
we can explore this problem and hear potential solutions from our panel 
of experts.

    Mr. Payne. The Chairman now recognizes the Ranking Member 
of the subcommittee, the gentleman from New York, Mr. King, for 
an opening statement.
    Mr. King. Thank you, Chairman Payne. I appreciate the 
opportunity, and I think this is a very significant hearing, an 
important hearing. I will make my remarks brief. I have a 
prepared statement, so I ask my staff that they submit it for 
the record.
    Let me just say that New York has been hit particularly 
hard. We have over 400,000 confirmed cases. In my district 
alone, there is more than 20,000 confirmed cases. There is 
probably 12- to 1,300 deaths in the district.
    Now, in particular, the focus of this hearing, as far as 
how it is impacting the minority community, that is 
particularly true in my district. The average community in the 
district, excluding the minority communities for the purpose of 
this debate, discussion, is between 15 and 20 cases per 1,000. 
In the minority communities of Brentwood, Central Islip, and 
Wyandanch, it has gone from 62 to 70 cases per 1,000. So that 
is 3, 4, 5 times higher in the minority communities.
    Now, the immediate reason for that seems to be that many of 
the front-line workers, the grocery workers, transit workers 
are minorities, so they are right on the front lines. They are 
the front-line warriors, and they are getting impacted 
directly.
    I think some of the long-term reasons, though, are that the 
underlying health conditions, such as diabetes and high blood 
pressure, heart disease, are illnesses that, for a long time, 
go undetected, and people may not know they have them, and 
there is a lack of health care in the minority communities.
    That is why I think it is important--and I worked with 
Congresswoman Yvette Clarke on this, too. We have to increase 
the use of community health centers. To me, you have to have 
them. They are in the community where the people living in that 
community feel safe and secure going to them. They don't feel 
they are going to be--check the immigration status or anything 
else. They can just go.
    Also, having it nearby is--just makes it more comfortable. 
Also, these are people who very often have low incomes and 
really don't want to be going to doctors. They can't afford it, 
and, if they don't feel sick, they are not going to go looking 
for it, and that is why it is important to get check-ups, be 
tested, and I think community health centers are extremely 
important.
    Now, we really began to realize this in early April, the 
extent of the pandemic in the minority communities, so we did 
put--I worked with local Suffolk County. They put a testing 
center in Wyandanch, and also in Brentwood, which, again, are 
two of the most impacted communities, especially Brentwood.
    Also, I have been--emphasize that, whenever other 
partisanship is going on, fortunately, on Long Island, 
Congressman Suozzi, Congresswoman Rice, Congressman Zeldin, 
Congressman Greg Meeks, and I have been working extremely 
closely on this. Also, I have been working with the State 
senator who represents Central Islip and Brentwood, Senator 
Monica Martinez, who is a Democrat. We have been trying to work 
as closely as we can.
    But, again, you know, sooner or later, we are going to come 
out of this pandemic, but the fact is, that is only the 
beginning, because we have to realize this can certainly occur 
again, and, as you pointed out, what this has brought out is 
the underlying conditions as far as lack of proper health care 
for people in the minority communities. So we are going to have 
to address that as we go forward.
    As far as the Federal response, I haven't seen that be an 
issue on Long Island. Again, both of our county executives are 
Democrats. I have worked with them. I have not heard that there 
has been a lack of funding from the Federal Government as far 
as one community against another, and we did fight hard to get 
the ventilators and the gloves and masks, but I--that--so far, 
I don't see that being an issue, but I am not ruling it out.
    But I do think the underlying, long-term issue is going to 
be the issue of proper health care, and we have to take that 
into account, strongly into account. We have to find ways to 
rectify that going forward.
    So, with that, let me yield back, and I look forward to the 
testimony.
    Thank you, Mr. Chairman.
    [The statement of Ranking Member King follows:]
               Statement of Ranking Member Peter T. King
                             July 10, 2020
    The novel coronavirus or COVID-19 has already claimed half a 
million lives across the globe, and here in the United States, nowhere 
has been hit harder than New York. With over 32,000 deaths, my home 
State and District have been ravaged by this virus.
    While there has been a vigorous Federal, State, and local response, 
as our knowledge of the virus continues to mature, data has shown that 
COVID-19 is disproportionately affecting certain communities. In an 
April Coronavirus Task Force briefing, U.S. Surgeon General Jerome 
Adams acknowledged the increased risk of coronavirus to racial minority 
populations. The CDC states: ``Long-standing systemic health and social 
inequities have put some members of racial and ethnic minority groups 
at increased risk of getting COVID-19 or experiencing severe illness, 
regardless of age.''
    It is important that we understand and recognize which communities 
coronavirus is affecting most severely so that we can rally behind our 
neighbors and support them as we work to overcome this pandemic 
together.
    In May, I joined the New York Delegation on a call with the NAACP 
that focused on recovery from the pandemic with special emphasis on 
communities such as Wyandanch, North Amityville, Central Islip, and 
Brentwood. These communities with major minority populations have had 
far more coronavirus cases than most others in Long Island. I also 
joined colleagues in urging HHS to provide dedicated funding to 
community health centers which oftentimes serve as the primary care 
provider within communities of color.
    Further, I was proud to cosponsor the Pandemic Heroes Compensation 
Act, which creates a compensation fund for all essential workers and 
personnel who have been injured or impacted by COVID-19. As we 
virtually meet today, we must have greater appreciation for the 
suffering and sacrifice that our front-line workers face daily. Not 
only do police, firefighters, EMS workers, and health care workers put 
themselves in danger, but grocery store clerks, delivery workers, 
janitorial personnel, and transit workers risk their health and safety 
every day to serve the rest of us. And data highlights that minorities 
are disproportionately represented in essential front-line jobs, which 
increases their exposure to the virus.
    I commend all the first responders, medical personnel, essential 
workers, and public health officials who have--and continue to--
courageously put their lives on the line throughout this pandemic. I 
look forward to hearing from our panel today to understand more about 
the effects of the coronavirus and to possibly inform further work with 
the bipartisan Regional Recovery Task Force that I co-lead.

    Mr. Payne. I thank the Ranking Member for his candor and 
honesty, which is one of the reasons why I appreciate his 
service to this country so much. Thank you, sir----
    Mr. King. Thank you, Chairman.
    Mr. Payne [continuing]. Once again, and I would like to 
work with you on the community health center issue. That is 
something that has been very important to me, and it is good to 
hear that you are interested in that, and look forward to 
working with you on those issues.
    Mr. King. Great. Thank you.
    Mr. Payne. OK. So Members are reminded that the 
subcommittee will operate according to the guidelines laid out 
by the Chairman and Ranking Member in their July 8 colloquy. 
With that, I ask unanimous consent to waive committee rule 
8(a)(2) for the subcommittee during the remote proceedings 
under the covered period designated by the Speaker under House 
Resolution 965. Without objection, so ordered.
    The Chairman now recognizes the Chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. Good 
afternoon to my colleagues as well as our witnesses.
    I would like to thank both of you and the Ranking Member 
for holding today's hearing on health disparities in the COVID-
19 pandemic. The COVID-19 pandemic did not create health 
disparities in this country. Instead, the pandemic is further 
exposing these disparities and their tragic effects on minority 
and disadvantaged communities.
    Today's hearing provides an opportunity to examine the 
Federal response to the pandemic, and what must be done to 
confront the disproportionate impacts of the pandemic in these 
communities.
    In March, FEMA was tasked with being the lead Federal 
agency for COVID-19 response. I have been concerned about 
FEMA's past emergency response efforts where it failed to 
adequately address the needs of minority and economically 
disadvantaged communities. The complexities of the pandemic put 
this troubling history in starker view.
    In April 2020, FEMA published a new civil rights bulletin 
intended to ensure civil rights during the COVID-19 response. 
While the publication is an encouraging step, continued 
Congressional oversight of the agency's efforts and operations 
is necessary to ensure response effort--responsive efforts to 
provide equitable assistance to minority and economically 
disadvantaged communities.
    Of course, direction to FEMA and the entire Federal 
Government on pandemic response flows from the top. 
Unfortunately, President Trump's response to the worsening 
pandemic has been a failure by any reasonable measure. Failure 
to address minority and economic health disparities is a 
significant part of the shortcomings.
    The administration has even struggled to provide policy 
makers with COVID-19 case and morbidity data outcomes by race 
and ethnicity. In fact, it took pressure from Members of 
Congress and the public for the Centers for Disease Control and 
Prevention to release its first Nation-wide preliminary case on 
morbidity estimates by race and ethnicity on June 15, 2020, 
well into the pandemic.
    Communities of color and the economically disadvantaged 
have to contend not only with the deadly virus and failed 
Federal response, but also systematic inequities that put these 
communities at greater risk for COVID-19-related 
hospitalizations and death.
    On April 29, 2020, every Democratic Member of this 
committee sent a letter to the Department of Health and Human 
Services, Office of Inspector General, requesting they look at 
this issue and ways the Federal Government can better address 
health disparities in emergencies.
    Katrina taught us a lot. I thought we had learned a good 
bit about communities of color during emergencies, but, 
obviously, we still have some work to do.
    So I look forward to our witnesses' testimony today, and I 
yield back, Mr. Chairman.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             July 10, 2020
    The COVID-19 pandemic did not create health disparities in this 
country. Instead, the pandemic is further exposing these disparities 
and their tragic effects on minority and disadvantaged communities. 
Today's hearing provides an opportunity to examine the Federal response 
to the pandemic and what must be done to confront the disproportionate 
impacts of the pandemic in these communities.
    In March, FEMA was tasked with being the lead Federal agency for 
COVID-19 response. I have been concerned about FEMA's past emergency 
response efforts, where it failed to adequately address the needs of 
minority and economically disadvantaged communities. The complexities 
of a pandemic put this troubling history in starker view.
    In April 2020, FEMA published a new Civil Rights Bulletin intended 
to ensure civil rights during the COVID-19 response. While the 
publication is an encouraging step, continued Congressional oversight 
of the agency's efforts and operations is necessary to ensure response 
efforts provide equitable assistance to minorities and economically 
disadvantaged communities.
    Of course, direction to FEMA and the entire Federal Government on 
pandemic response flows from the top-down. Unfortunately, President 
Trump's response to the worsening pandemic has been a failure by any 
reasonable measure. Failure to address minority and economic health 
disparities is a significant part of the shortcoming. The 
administration has even struggled to provide policy makers with COVID-
19 case and morbidity data outcomes by race and ethnicity. In fact, it 
took pressure from Members of Congress and the public for the Centers 
for Disease Control and Prevention (CDC) to release its first Nation-
wide preliminary case and morbidity estimates by race and ethnicity on 
June 15, 2020, well into the pandemic.
    Though the data is still incomplete, CDC's estimates suggest what 
many non-governmental reports already show--African Americans, Latinos, 
Indigenous people, and Alaska Natives are disproportionately affected 
by the pandemic. Communities of color and the economically 
disadvantaged have had to contend not only with a deadly virus and 
failed Federal response, but also the systemic inequities that put 
these communities at greater risk for COVID-19-related hospitalization 
and death.
    On April 29, 2020, every Democratic Member of this committee sent a 
letter to the Department of Health and Human Services Office of 
Inspector General (OIG), requesting they look at this issue and ways 
the Federal Government can better address health disparities in 
emergencies. I look forward to the Inspector General's findings on our 
request.
    Today, I am pleased we are joined by our distinguished witnesses 
today. I hope we have a frank discussion about how the Federal 
Government can do more to include communities of color and the 
economically disadvantaged in its preparation, response, and recovery 
efforts for COVID-19 and other emergencies.

    Staff. We can't hear you, sir.
    Mr. Payne. I thank the Chairman for his opening statement, 
and I appreciate his leadership.
    Now, Mr. Rogers will not be joining us today, so I will 
move on to introducing the witnesses. Member statements may be 
submitted for the record.
    Our first witness is Dr. Georges Benjamin, who serves as 
executive director of the American Public Health Association. 
Dr. Benjamin's experience includes having been Secretary of the 
Maryland Department of Health & Mental Hygiene and the former 
chief of emergency medicine at the Walter Reed Army Medical 
Center. He is also a member of the National Academy of 
Medicine. Welcome.
    Our second witness is Dr. Leana Wen. Dr. Wen is an 
emergency physician and visiting professor of health policy and 
management at the George Washington University's Milken School 
of Public Health, where she is also a distinguished fellow at 
the Fitzhugh Mullan Institute of Health Workforce Equity. She 
also previously served as Baltimore's health commissioner. 
Thank you for being here.
    Our third and final witness is Chauncia Willis. Ms. Willis 
is the co-founder and CEO of the Institute for Diversity and 
Inclusion in Emergency Management. She is a certified emergency 
manager, a master exercise practitioner, and serves as the 
immediate past president of the International Association of 
Emergency Managers, region 4. Welcome.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Dr. Benjamin.

 STATEMENT OF GEORGES C. BENJAMIN, M.D., EXECUTIVE DIRECTOR OF 
             THE AMERICAN PUBLIC HEALTH ASSOCIATION

    Dr. Benjamin. Chairman Thompson, Chairman Payne, and 
Ranking Member King, first, thank you very much for allowing me 
to spend some time with you this morning.
    I am--you have my full testimony. I am going to focus on 
three areas: Disparate impact and the cause of it, some 
concerns I have about on-going co-occurring preparedness 
activity, and then, of course, the importance of rebuilding our 
public health infrastructure.
    As you know, this has devastated our Nation. Over 3 million 
cases, over 130,000 deaths, and they are growing at 60,000 
cases a day. If you look at the minority community, we have 
been devastated disproportionately. For African Americans, over 
13 percent of the population with 24 percent of the deaths. 
Hospitalizations are 5 times for African Americans than non-
Hispanic Whites, and 4 times for Hispanics than non-Hispanic 
Whites. The Native American population is also substantially 
being devastated by this outbreak.
    I think that we ought to think about this epidemic as 
though we have 3 of them. No. 1, we obviously have this big 
infectious disease epidemic. We also have an infodemic, which I 
am going to come back and talk about, which is a lot of 
misinformation and disinformation. Clearly, fear plays a 
predominant role in our community, a lot of it because we don't 
know what is going on. It is a new disease. There is lots of 
issues that--and, quite frankly, we need to strengthen the 
National leadership that we have had on this outbreak.
    Obviously, the impact has not just been on health; it has 
also been on the economy, it has been on the social welfare, et 
cetera. There are 3 main reasons for this: Higher exposure 
because of public-facing jobs for minorities, susceptibility 
because of a long history of chronic diseases, and social 
determinants of health. You know, 80 percent of what makes you 
healthy occurs outside the doctor's office.
    So, people are set up not to be able to have good health, 
and that includes things such as having to work multiple jobs 
because of pay inequalities, because of the lack of paid sick 
leave, the housing, which prohibits you from being able to 
really physically distance, even if you get infected in your 
home. These are all concerns that we have to address if we are 
going to go forward.
    Our response has been challenged in many ways. We have had 
inadequate testing. We have had absolutely inadequate data so 
we can target our resources and target our responses. Contact 
tracing is well behind where it needs to be. In terms of 
education, we have not really done a great job of educating the 
public on what is going on and how to address this as we go 
forward.
    I remain concerned that, should we get hit with something 
this summer, like a severe storm or another hurricane, 
wildfires, or an earthquake, that our ability to simply manage 
that will be severely stressed. Imagine being in a shelter 
where you can't really manage face coverings very well, hand 
washing, and physical distancing. We haven't really planned 
adequately for that.
    Finally, we need to fix our broken public health system. I 
was the health officer in Maryland on 9/11. We had a pretty 
good public health system, but even Congress and the 
administration at the time buffered and improved our public 
health system.
    But we, as a Nation, have allowed that to erode away 
substantially over the last several years. It has impacted our 
response to COVID. It stands to impact our response to natural 
disasters, and I remain concerned that the coordination and the 
leadership isn't there for us to address these things as we go 
forward.
    With that, I would be kind enough to stop and, you know, 
take questions during the question-and-answer period.
    Thank you, Chairman, and Members of the committee.
    [The prepared statement of Dr. Benjamin follows:]
               Prepared Statement of Georges C. Benjamin
                             July 10, 2020
    Chairman Payne, Ranking Member King, and Members of the 
subcommittee, thank you for the opportunity to address you today on the 
impact of the COVID-19 pandemic on communities of color. I am Georges 
C. Benjamin, MD, executive director of the American Public Health 
Association in Washington, DC. APHA champions the health of all people 
and all communities. We strengthen the public health profession, 
promote best practices, and share the latest public health research and 
information. We are the only organization that combines a nearly 150-
year perspective, a broad-based member community and the ability to 
influence policy to improve the public's health.
    The ``outbreak of pneumonia of an unknown cause'' was first 
reported in Wuhan, China on Dec. 31, 2019, and was in the United States 
by mid-January. The pneumonia was found to be caused by a novel 
coronavirus, which has been named and classified as SARS-2. This virus 
causes a disease, named COVID-19, which enters the body primarily 
through the respiratory route and causes a severe pneumonia as its 
major physiological impact. We now know the virus is able to attack 
many different organ systems, causing a range of clinical problems. To 
date it has stricken over 3 million individuals and caused over 131,000 
deaths in the United States alone. We know that this virus is one of a 
family of coronaviruses that causes mild diseases like the common cold 
and also much more severe infections like Middle Eastern Respiratory 
Syndrome (MERS) and its less severe but also lethal cousin Sudden Acute 
Respiratory Syndrome (SARS-1). It remains infectious on a variety of 
surfaces from hours to days but degrades easily under certain 
environmental conditions. It is easily deactivated by common household 
cleaning and desanitizing products.
    We currently have 3 co-occurring epidemics associated with this 
crisis: The infectious pandemic; an ``infodemic'' of misinformation and 
disinformation; and an epidemic of fear. The epidemic of fear is caused 
by a combination of things: Fear of the virus, but also fear arising 
from the uncertainties around its spread and other unknown factors, and 
fear stoked by the poor and inconsistent risk communication from some 
political leaders.
    The epidemiology of this virus shows it is actively spreading 
throughout the community and that each person can infect on average at 
least 2 other people. It is more infectious than most influenza strains 
and causes mild to no symptoms in about 80 percent of cases, with 15-20 
percent having more severe disease. The case fatality rate in the 
United States is about 4.6 percent (39.6 deaths/100,000 population). 
This rate will probably reduce as the number of asymptomatic and mild 
cases becomes clearer. We now know that at least 40 percent of infected 
people are asymptomatic or presymptomatic spreaders. The virus can 
spread in 3 main ways, most frequently from large particulate 
respiratory spread, fine respiratory aerosols, and fomites. Fomite 
spread occurs when a person contaminates their hand or another object 
with respiratory secretions.
    People of all ages are at risk of getting this disease; however, 
children have been shown in general to have less severe symptoms. There 
is, however, a syndrome that is under investigation in a very small 
number of children and young adults of a hyper-immune disease triggered 
by the virus. The impact on pregnant women and children is less well-
defined but appears at this time not to cause very severe disease. 
However, there needs to be much caution to interpreting these early 
observations as many clinical impacts on newborn children and pregnant 
women can be delayed.
    The biggest impact from COVID-19 has been its disproportionate toll 
on communities of color. Early in the outbreak it became clear that 
African Americans and Hispanics were being impacted by both a higher 
incidence of this disease and a higher percentage of premature deaths 
when compared to the overall population. Data from a recently published 
paper in the Annals of Epidemiology reinforces the finding that African 
Americans are harder hit in this pandemic. The study from researchers 
at amfAR, The Foundation for AIDS Research, looked at county-level 
health outcomes, comparing counties with disproportionately Black 
populations to all other counties. Their analysis showed that while 
disproportionately Black counties account for only 30 percent of the 
U.S. population, they were the location of 56 percent of COVID-19 
deaths. Even disproportionately Black counties with above-average 
wealth and health care coverage bore an unequal share of deaths.\1\
---------------------------------------------------------------------------
    \1\ Millett GA, Jones AT, Benkeser D, Baral S, Mercer L, Beyrer C, 
Honermann B, Lankiewicz E, Mena L, Crowley JS, Sherwood J, Sullivan P, 
Assessing Differential Impacts of COVID-19 on Black Communities, Annals 
of Epidemiology (2020).
---------------------------------------------------------------------------
    Another analysis from the U.S. Centers for Disease Control and 
Prevention has also shown this disparity on a National basis, 
especially in hospitalized patients.\2\
---------------------------------------------------------------------------
    \2\ Garg S, Kim L, Whitaker M, et al. Hospitalization Rates and 
Characteristics of Patients Hospitalized with Laboratory-Confirmed 
Coronavirus Disease 2019--COVID-NET, 14 States, March 1-30, 2020. MMWR 
Morb Mortal Wkly Rep 2020; 69: 458-464.
---------------------------------------------------------------------------
    The COVID Tracking Project has been tracing this phenomenon as well 
(https://covidtracking.com/race). They have found that 24 percent of 
the deaths where race is known are from African Americans, which 
comprises 13 percent of the U.S. population. More recently, CDC 
reported that as of June 12, 2020, age-adjusted hospitalization rates 
for non-Hispanic Blacks or American Indian/Alaska Native persons are 
approximately 5 times that of non-Hispanic whites and 4 times higher 
for Hispanic or Latino persons than that for non-Hispanic whites.\3\
---------------------------------------------------------------------------
    \3\ https://www.cdc.gov/coronavirus/2019-ncov/need-extra-
precautions/racial-ethnic-minorities.html, Accessed on-line July 5, 
2020.
---------------------------------------------------------------------------
    A recent white paper by scholars at Harvard University found that 
Black Americans under the age of 65 have lost, collectively, 45,777 
years of life as a result of COVID-19. Hispanics and Latinos lost 
48,204 years of life, while white Americans under age 65 have lost, 
collectively, 33,446 years of life.\4\
---------------------------------------------------------------------------
    \4\ Bassett, MT, MD, MPH, Jarvis T. Chen, ScD, Nancy Krieger, PhD, 
The unequal toll of COVID-19 mortality by age in the United States: 
Quantifying racial/ethnic disparities, June 12, 2020 https://
cdn1.sph.harvard.edu/wp-content/uploads/sites/1266/2020/06/20_Bassett-
Chen-Krieger_COVID-19_plus_age_working-paper_0612_Vol-19_No-3_with-
cover.pdf, Accessed on-line July 5, 2020.
---------------------------------------------------------------------------
    This disparity in the impact of COVID-19 is not surprising in its 
presence, only in its scope. There are several reasons for this 
disparity. The first is greater exposure among communities of color due 
to their occupations. During this outbreak, more minorities have held 
pubic-facing occupations that put them at a higher risk of exposure as 
the Nation moved to a stay-at-home posture. For example, grocery store 
clerks, transit workers, hotel workers, meatpacking plant workers, 
poultry workers and sanitarians were defined as essential workers and 
have continued to work and therefore have had higher risks of novel 
coronavirus exposures overall.
    The second issue was a higher susceptibility to more severe disease 
should they get infected. Early evidence from the Chinese experience 
showed that the 15-20 percent of people with more severe disease tended 
to have pre-existing chronic diseases like heart disease, hypertension, 
lung disease, and diabetes. This tendency to more severe disease for 
infected people with chronic diseases has played out similarly in the 
United States. We know that African Americans are 25 percent more 
likely to die from heart disease, 72 percent more likely to have 
diabetes, 20 percent more likely to have asthma, and 2 times more 
likely to develop hypertension than non-Hispanic whites. We also know 
that many of these diseases develop at an earlier age as well. 
Hispanics have less heart disease and cancer than whites but have a 50 
percent higher incidence of diabetes and are more likely to lack health 
insurance.
    The third issue is the ``infodemic'' I earlier spoke about. We know 
misinformation is rampant in minority communities. Some of it is 
purposeful. Early rumors that African Americans were immune from the 
disease as well as rumors about false treatments and cures are wide-
spread on social media and are even being spread via flyers and 
brochures. One example of a flyer that targeted the citizens of New 
Jersey in minority, Jewish, and Muslim communities is shown in the link 
in this testimony. This flyer falsely included the logos of the U.S. 
Centers for Disease Control and Prevention and the World Health 
Organization shown here: https://www.njhomelandsecurity.gov/covid19. 
Similar flyers and disinformation more specifically targeting African 
Americans have been found in cities like New Orleans and on social 
media sites. In these cases people have been encouraged not to get 
tested or get the COVID-19 vaccine when it becomes available. The 
disinformation often tells people that testing is being done to track 
people to give them the disease. Another widely-spread myth: The future 
vaccine will make one sterile. The anti-vaccine movement is amplifying 
these messages to others to discourage vaccine use. Many of these 
efforts are designed to build on existing mistrust of authority figures 
and create a sense of confusion and further loss of trust within the 
community.
    The fourth reason for these health disparities is the presence of 
long-standing inequities in the social determinants of health that have 
created the conditions for ill health in minorities and disadvantaged 
people for years. A recent study by a team of noted researchers from 
the Harvard University Center for Population and Development Studies 
looked at the relationship between social determinants and excess 
mortality from COVID-19. It showed higher mortality from COVID-19 in 
cities and towns that had higher rates of poverty, household crowding, 
percentage of populations of color and higher racialized economic 
segregation.\5\
---------------------------------------------------------------------------
    \5\ Jarvis T. Chen, ScD, Pamela D. Waterman, MPH and Nancy Krieger, 
PhD, entitled, COVID-19 and the unequal surge in mortality rates in 
Massachusetts, by city/town and ZIP Code measures of poverty, household 
crowding, race/ethnicity, and racialized economic segregation. https://
cdn1.sph.harvard.edu/wp-content/uploads/sites/1266/2020/05/
20_jtc_pdw_nk_- COVID19_MA-excess-
mortality_text_tables_figures_final_0509_with-cover-1.pdf, Accessed on-
line June 2, 2020.
---------------------------------------------------------------------------
    Finally, we know that place matters and can put individuals at 
higher risk for infection. Examples include nursing homes full of 
elderly individuals with chronic diseases and jails and prisons where 
confinement and limited access to handwashing and respiratory 
protections increase risk. Of course the Nation's prisons house a 
disproportionate number of men of color because of unjust criminal 
justice policies. Awareness about this long-standing injustice has 
contributed to recent efforts to deinstitutionalize non-violent 
offenders and unadjudicated individuals in custody to reduce their risk 
of infection.
    We can address these disparities through sound public health 
strategies. First, we need broad promotion of physical distancing, 
wearing masks and other respiratory protections, handwashing, and 
following sound science in disease prevention and control as we 
reemerge from our homes back into public spaces. We have to ensure 
robust testing for symptomatic individuals and individuals at high risk 
due to occupation or place. Testing locations must be accessible to all 
communities. In the early roll out of testing when the availability of 
tests was limited, many testing sites were not available equally to all 
communities. This was a particular problem for the drive-by testing 
sites, which were often not easy to get to and required the use of a 
car. These factors can play a huge role in determining who gets tested. 
Those making decisions about the location of testing sites should 
always vet these choices with representatives of the entire community 
to ensure they address any potential barriers.
    Testing for the virus must be followed up by adequate contact 
tracing and sound programs for the isolation and quarantine of infected 
and exposed individuals. The use of culturally competent messages and 
messengers (including lay messengers, community health workers, faith 
community leaders, barbers, beauticians, and social workers) is 
critical to address the misinformation and other issues of concern. 
Communities should use more radio, social media, and age-appropriate 
vehicles for community health education. Materials should be prepared 
in a range of languages to reach people for whom English is not their 
first language (Spanish, Haitian, Chinese, Portuguese, etc.).
    Importantly, we must adequately collect demographic and 
occupational data, including race and ethnicity, on who gets tested and 
where, the prevalence of the disease, comorbidities, hospitalizations, 
and deaths from individuals tested for or diagnosed with COVID-19. This 
information is critical to ensuring that public health authorities and 
other decision makers can make data-driven decisions on where to place 
services and resources to reduce and ultimately eliminate health 
inequities.
    Also, we must acknowledge how racism in all of its forms has 
created a legacy of unequal access to a range of health services, 
resulting in differences in the quality of care received, health-
seeking behaviors and in the social factors that affect one's health. 
This must be addressed as a component of any solution to reduce the 
unequal impact of COVID-19 on communities of color.
    There is a great deal of concern that the Nation-wide mass protests 
that occurred after the murder of George Floyd at the hands of 
Minneapolis police would result in disease spikes because, as I noted 
earlier, increased exposure is a risk factor for increased disease in 
communities of color, with higher morbidity and mortality. These 
increased exposures were complicated by police crowd control actions 
like the use of tear gas, pepper spray, and corralling and detaining 
protesters into large groups. These actions further increase the risks 
of COVID-19 infection.
    The presences of mass gatherings in the face of a severe pandemic 
do create a perceived health risk paradox. It raises the question, why 
would people choose to increase their risk of infection and get sick 
with COVID-19 in order to participate in mass protests, and what is the 
trade-off they are making? Many people believe the protesters are 
making a trade-off between the potential health risks of them becoming 
infected with COVID-19 with the real risk of them and their neighbors 
experiencing police brutality. For many, the magnitude of ending police 
violence, racial profiling, and verbal harassment driven by racism 
overshadows the risk of getting COVID-19.
    It remains to be seen if the protests will result in increased 
disease spikes. Nationally, we have begun to see increases in disease 
positivity and hospitalizations as the Nation continues to reopen. It 
will be difficult to determine the relative roles the mass protests and 
reopening are playing in these exacerbations of the pandemic. However, 
it is clear that the health impact from COVID-19 has had a disparate 
impact on communities of color, and we must remain vigilant in our 
response.
    I am concerned about how we plan for several potential health 
threats that could hit the United States during the pandemic over the 
next 6 months. This summer we are expecting a higher-than-normal 
hurricane season, and this fall we will have the seasonal return of 
influenza. Climate change has caused more severe storms, floods, 
wildfires, and increased the spread of other climate-sensitive 
infectious diseases. All of these have been shown to have a disparate 
impact on communities of color when they occur. The increase in toxic 
air from wildfires and the increase in water-borne and mosquito-borne 
diseases all pose an increased risk to COVID-19-compromised patients. 
Finally, the traditional approach to managing emergencies will require 
more thought and planning as the ability to provide and use 
nonpharmacological interventions (masking, handwashing, and physical 
distancing) is much more difficult in emergency shelters during heat 
waves or mass evacuations. I am aware the Federal Emergency Management 
Agency has begun to look into this, but the opportunity to begin 
educating the public on what to do differently in an emergency is now.
    In order to ensure our States, cities, and territories are better 
prepared for the next emergency, it is essential that Congress increase 
funding for CDC's Public Health Emergency Preparedness Cooperative 
Agreement and ASPR's Hospital Preparedness Program. Unfortunately, PHEP 
funding has decreased from $939 million in fiscal year 2003 to $675 
million in fiscal year 2020, while HPP has been slashed from $515 
million in fiscal year 2003 to $275 million in fiscal year 2020. The 
COVID-19 pandemic has demonstrated how essential HPP and PHEP are to 
the public health and health care systems' ability to respond quickly 
and efficiently to emergencies. The investments from the Public Health 
Emergency Preparedness Cooperative Agreement created the response 
systems and infrastructure that enable States, cities, and territories 
to respond to public health emergencies. PHEP has invested in 
capabilities critical to the COVID-19 response, such as incident 
management, epidemiological investigation, laboratory testing, 
community preparedness and recovery, and medical countermeasures and 
mitigation. By having staff in place and trained prior to an emergency, 
public health departments can respond without delay. Although 
supplemental funding is needed during this pandemic, base PHEP funding 
allows health departments to hire and retain expert staff. HPP is the 
only source of Federal funding for regional health care system 
preparedness, minimizing the need for supplemental State and Federal 
resources during a disaster. HPP provides funding and technical 
assistance to every State, 4 cities, and U.S. territories to prepare 
the health care system to respond and recover to events such as COVID-
19. We are calling on Congress to provide at least $824,000,000 for the 
PHEP cooperative agreement and at least $474,000,000 for HPP in the 
fiscal year 2021 Labor, Health and Human Services, and Education 
Appropriations bill.
    A strong public health infrastructure and workforce are also 
essential to helping us reduce health inequities related to COVID-19 
and other health threats. In order to better ensure our public health 
infrastructure is adequately prepared for addressing the current 
pandemic, future pandemics and other public health emergencies, we must 
seriously look at fixing our vastly underfunded public health system. 
APHA is calling on Congress to provide $4.5 billion in additional long-
term annual mandatory funding for CDC and State, local, Tribal, and 
territorial public health agencies for core public health 
infrastructure activities.\6\ \7\ This funding would support essential 
activities such as: Disease surveillance, epidemiology, laboratory 
capacity, all-hazards preparedness and response, policy development and 
support, communications, community partnership development and 
organizational competencies. This funding is critical to ensuring our 
State and local health departments have broad core capacity to not only 
respond to the current pandemic but to better respond to the many other 
public health challenges they face on a daily basis. For far too long 
we have neglected our Nation's public health infrastructure, and we 
must end the cycle of temporary infusions of funding during emergencies 
and provide a sustained and reliable funding mechanism to ensure we are 
better prepared to protect and improve the public's health, including 
our most vulnerable communities, from all threats.
---------------------------------------------------------------------------
    \6\ Organization letter to House and Senate leaders urging a 
significant, long-term investment in public health infrastructure in 
future legislation to speed the response to the COVID-19 pandemic. 
April 3, 2020. Available at: https://apha.org/-/media/files/pdf/
advocacy/letters/2020/200403_ph_infrastructure_covid_stimulus.ashx.
    \7\ Public Health Leadership Forum. Developing a financing system 
to support public health infrastructure. Available at: https://
www.resolve.ngo/docs/phlf_developingafinancingsystemto- 
supportpublichealth636869439688663025.pdf.
---------------------------------------------------------------------------
    Congress should also authorize and appropriate funding in fiscal 
years 2020 and 2021 for a public health workforce loan repayment 
program. This program was authorized, but not appropriated in the 
HEROES Act passed by the House of Representatives.\8\ Providing funding 
for this important program will help incentivize new and recent 
graduates to join the Governmental public health workforce, encourage 
them to stay in these roles, and strengthen the public health workforce 
as a whole. The public health workforce is the backbone of our Nation's 
governmental public health system at the county, city, State, and 
Tribal levels. These skilled professionals deliver critical public 
health programs and services. They lead efforts to ensure the tracking 
and surveillance of infectious disease outbreaks, such as COVID-19, 
prepare for and respond to natural or man-made disasters, and ensure 
the safety of the air we breathe, the food we eat, and the water we 
drink. Health departments employ public health nurses, behavioral 
health staff, community health workers, environmental health workers, 
epidemiologists, health educators, nutritionists, laboratory workers 
and other health professionals who use their invaluable skills to 
achieve health equity and keep people in communities across the Nation 
healthy and safe.
---------------------------------------------------------------------------
    \8\ Organization letter to House and Senate leaders supporting the 
inclusion of the Public Health Workforce Loan Repayment Program in the 
HEROES Act. May, 14, 2020. Available at: https://apha.org/-/media/
files/pdf/advocacy/letters/2020/200514_ph_workforce_loan_repay- 
ment.ashx.
---------------------------------------------------------------------------
    Finally, we should support and enact legislation that directly 
targets existing disparities and promotes health equity. This would 
include legislation that provides support and coordination at the 
Federal level for addressing the social determinants of health that 
underlie many existing racial and ethnic health disparities. We also 
need legislation that addresses these disparities directly through 
promoting equity in health care access, workforce representation, data 
collection, and other areas. Existing legislation that would further 
these efforts includes H.R. 6637, the Health Equity and Accountability 
Act of 2020, and H.R. 6561, the Improving Social Determinants of Health 
Act of 2020.
    I thank you for the opportunity to testify before you on this 
important issue. I look forward to answering any questions you may 
have.

    Dr. Wen. Chairman, I am not sure we heard you.
    Mr. Payne. Thank you, Dr. Benjamin, for your testimony.
    I now recognize Dr. Wen to summarize her testimony. Thank 
you.

  STATEMENT OF LEANA WEN, M.D., VISITING PROFESSOR OF HEALTH 
  POLICY AND MANAGEMENT, GEORGE WASHINGTON UNIVERSITY MILKEN 
               INSTITUTE SCHOOL OF PUBLIC HEALTH

    Dr. Wen. Thank you very much, Chairman Payne, Ranking 
Member King, and distinguished subcommittee Members. Thank you 
for addressing the intersection of racial disparities and the 
COVID-19 pandemic.
    So I come to you from the city of Baltimore, where I am a 
practicing physician and had the honor of serving as its health 
commissioner. In my city, children born today can expect to 
live 20 years more or less depending on where they are born and 
the color of their skin. There are racial disparities across 
every metric of health. That is a result of structural racism 
and inequities.
    COVID-19 is a new disease that has unmasked these long-
standing health disparities, and the evidence is clear that 
African Americans, Latinos, Native Americans, and other 
minorities bear the greatest brunt of this pandemic.
    My written testimony outlines 10 actions that Congress can 
take now to reduce the disproportionate impact of the pandemic 
on people of color. I would like to highlight 6 of them that 
are directly relevant to the work of the Homeland Security 
Committee.
    First, target testing to minority and underserved 
communities. Testing must be free, widespread, and easily 
accessible, yet it is estimated that we need 10 times the 
amount of testing that we currently have. Congress must 
instruct FEMA to ramp up testing and to set up testing 
facilities all across the country. Existing hotspots should be 
the priority initially, but the key is to have enough testing 
everywhere to prevent clusters from becoming outbreaks and 
outbreaks from becoming epidemics.
    Second, provide free facilities for isolation and 
quarantining. We know the key to reining in the virus is 
testing, tracing, and isolation. Well, if someone tests 
positive, we tell them to self-isolate. What do you do if you 
live in crowded, multigenerational housing, as minorities 
disproportionately do? Other countries have addressed this by 
setting up field hospitals and converting unused hotels into 
voluntary self-isolation facilities. Congress should request 
FEMA to do the same.
    Third, institute stronger worker protections. Minorities 
constitute a larger percentage of essential workers. The CDC 
has issued watered-down guidelines, and OSHA has not met its 
mission to protect workers. Your committee can ensure that 
workplace protections are followed for Federal workers, like 
TSA employees. This includes universal masking for all 
passengers in airports, as this will protect the employees as 
well as the public. You can also institute stronger protections 
to limit the spread of COVID-19 in DHS-run immigration 
detention facilities. That includes access to PPE and 
appropriate protocols for isolation and quarantining.
    Fourth, suspend immigration enforcement for those seeking 
medical assistance for COVID-19. Public health hinges on public 
trust. Undocumented immigrants who fear deportation will be 
scared to seek help if they exhibit COVID-19 symptoms, and pose 
a risk not only to themselves, but to their families and 
communities.
    Congress should prohibit ICE from accessing records at 
facilities of those seeking care for COVID-19. Congress should 
also ask for temporary cessation of the Trump administration's 
public charge rule.
    Fifth, prepare for the next surge. It is a National shame 
that we ran out of masks and other PPE to protect our health 
care workers. There was no excuse in March, and even less of an 
excuse now. PPE should not only be available to doctors and 
nurses. Why shouldn't grocery cashiers, bus drivers, nursing 
home attendants, who are disproportionately people of color, 
have protection too? Congress must urge the Trump 
administration to have a National strategy. This includes 
activating the Defense Production Act to ensure that PPE, 
ventilators, and other critical supplies are produced in 
sufficient quantity. Lack of action affects everyone, but, in 
particular, minority communities.
    Sixth, and finally, support local public health. Funding 
for public health preparedness has been cut by half over the 
last decade, forcing local officials to make impossible 
tradeoffs between critical programs. I think we can all agree 
that treating COVID-19 should not come at the expense of 
preventing cardiovascular disease and reducing overdose deaths. 
I urge that your committee also consider the public health 
safety net to be part of the backbone of critical 
infrastructure and National security in the United States.
    I would like to end my testimony by thanking all of you for 
focusing on tangible solutions. There are systemic problems 
that we must address that will take sustained commitment and 
dedicated effort, but we are facing the biggest public health 
crisis of our time, literally a life-and-death threat facing 
our communities of color now. We cannot just ignore problems. 
Now is the time to take action to reduce disparities in COVID-
19 outcomes and, in so doing, improve health for all.
    Thank you.
    [The prepared statement of Dr. Wen follows:]
                    Prepared Statement of Leana Wen
                             July 10, 2020
    Chairman Payne, Ranking Member King, and distinguished Members of 
the Subcommittee on Emergency Preparedness, Response & Recovery: Thank 
you for convening this important conversation to address racial 
disparities during the COVID-19 pandemic.
    The numbers are clear. We can plainly see the devastating impact of 
COVID-19 that disproportionately affects African-Americans, Latino-
Americans, Native Americans, and other communities of color. According 
to new data published in the New York Times this week, Latino and 
African-Americans are 3 times as likely to be infected as their white 
neighbors. They are twice as likely to die from the virus.
    A Brookings Institution report found that in some age groups, 
African-Americans have 6 times the mortality than whites. In some 
States, Hispanics have more than 4 times the expected rate of infection 
based on their share of the population. In California, Pacific 
Islanders face a death rate from COVID-19 that is 2.6 times higher than 
the rest of the State. In South Dakota, the rate of COVID-19 among 
Asian Americans is 6 times what would be predicted based on demographic 
data, on a backdrop of surging racism and xenophobia directed toward 
Asian Americans across the country. Other minority communities are also 
disproportionately affected, including in New Mexico, where Native 
American people comprise about 11 percent of the population yet account 
for nearly 60 percent of COVID-19 cases. These harrowing numbers are 
only the tip the iceberg; there are lot of data missing that would more 
fully illustrate the impact of COVID-19 on communities of color.
    Why are there such rampant health disparities? I'd like to 
introduce a concept we in medicine know well: ``acute on chronic''. In 
medical practice, this refers to a patient who has a long-standing 
medical condition that is exacerbated by an acute illness. This is the 
case for COVID-19: It is a new disease, a global pandemic, that has 
unmasked long-standing underlying health disparities.
    Let me give you the example from a city I know well, my home city 
of Baltimore, Maryland, where I previously served as the Health 
Commissioner. A child born today can expect to live 20 years more or 
less depending on the neighborhood he or she is born into. There are 
racial disparities in just about every metric of health, whether it's 
death from cardiovascular disease or maternal or infant mortality. In 
my city, and all across the United States, we live in a world where the 
currency of inequality is years of life.
    This is the existing situation, of rampant health disparities. Now, 
we have a new disease that is rapidly transmitted from person to 
person. It is not surprising that areas with many individuals who are 
essential workers, that also have higher density and crowded living and 
working conditions, will have higher rates of transmission; after all, 
social distancing is a privilege that many people do not have. On top 
of that, COVID-19 causes the most severe illness in people with 
underlying medical conditions. Racial minorities who experience higher 
rates of high blood pressure, diabetes, and other conditions as a 
result of food deserts, lack of accessible care and other environment 
conditions will be disproportionately affected once again.
    Add on to this that COVID-19 has resulted in stopping key social 
programs that are lifelines in my community and all across the country, 
like schools and senior centers. Home visitation programs that have 
been instrumental to reducing infant mortality and lead poisoning have 
been put on hold. Many who have chronic conditions faced additional 
problems of accessing care: Not only care for physical health 
conditions but also mental health as well. The acute impacts of COVID-
19 worsen the underlying conditions in individuals and communities. Our 
solutions must therefore focus on both aspects.
    In this testimony, I emphasize 10 actions that Congress can take 
now to reduce the disproportionate impact of the pandemic on people of 
color. When possible, I emphasize (in the underlined text) the agencies 
and entities that are directly under the jurisdiction of the Homeland 
Security Committee.
    (1) Target testing to minority and underserved communities.
    There must be free, wide-spread, and easily accessible testing 
that's directed toward the most impacted communities--in this case, 
specifically communities of color that will experience the 
disproportionate impacts of COVID-19. Not only should these tests be 
available at no cost, they must also be easy to obtain. Testing 
locations shouldn't just be at hospitals and doctor's offices; they 
should be in the community, where people live and work. This, indeed, 
is a tenet of public health, to go to where people are.
    Reducing the racial disparities in COVID-19 outcomes requires that 
public health officials be attentive to detecting COVID-19 cases early 
to prevent a cluster from becoming an outbreak. Efforts must be made to 
increase testing sites throughout minority and underserved communities, 
including with creative outreach efforts: For example, testing drives 
at churches, community centers, and public housing complexes. Given 
existing disparities in accessing the health care systems, tests should 
be made available without a doctor's prescription.
    State and local officials cannot do this work alone; it's estimated 
that we need 10 times the amount of testing that we currently have. 
Congress must instruct FEMA to ramp up testing and to set up testing 
facilities all across the country. Existing hotspots should be the 
priority, but emphasis should be placed to ensure that community spread 
is detected early on to prevent clusters from becoming outbreaks and 
outbreaks from becoming epidemics. In addition, FEMA must coordinate 
efforts to ensure that the supply chain remains intact, and that surges 
in infections do not result in swabs and testing reagents from becoming 
limiting factors.
    (2) Track demographic information to ensure equitable resource 
allocation.
    There have been many calls to make publicly available racial 
demographic data for infections, hospitalizations, and deaths from 
COVID-19. I agree with this, and add one more data point that's 
critical: The demographic data for testing. The other metrics are 
important too, but they measure what has happened with disease spread, 
as opposed to testing, which measures the actions that are in our 
control to prevent the spread in the first place.
    Public health experts generally agree that sufficient tests are 
performed when the positive rate falls below 10 percent. That is to 
say, the net is cast wide enough when less than 10 percent in a 
population test positive. I would like to see this testing data broken 
down by race and zip code. That way, if we see the positive rate in the 
population in a community is at 10 percent, but African-Americans are 
still testing positive at a rate of 20 percent, that means African-
Americans are under-tested compared to others. Similarly, neighborhood 
data would allow for better targeting of tests and resources to 
specific areas.
    My ideal scenario is to have a dashboard that is updated in real 
time, and that's coordinated by the Federal Government with data 
uploaded by State and local officials. This provides important 
information and also offers the transparency and accountability that 
are needed to ensure that communities most in need are receiving the 
resources they require. Federal funding can be tied to the availability 
of these data, adding a strong incentive for compliance.
    The CDC would be the ideal entity to coordinate such a dashboard. 
FEMA can also play a role in tracking this information, especially if 
it becomes instrumental (as I hope it does) in ensuring wide-spread 
testing.
    (3) Hire contact tracers from minority communities.
    As efforts ramp up to recruit, train, and deploy contact tracers, 
there must be recognition that effective contact tracing depends on 
community trust. Every effort should be made to recruit contact tracers 
from the communities they serve, and to deploy contact tracers based on 
community need. Those who are the most ``credible messengers'' must 
also have language ability that reflects the needs of those they serve. 
This will also serve as an opportunity for employment in communities 
hardest hit by the economic impacts of COVID-19 as well.
    While contract tracers should come local communities, the 
coordination can be done Nationally. It makes no sense to have 50 
different protocols for recruitment, training, and deployment. A 
National strategy for contact tracers could, in theory, come under the 
purview of the Department of Homeland Security, which has experience in 
mass deployment for critical infrastructure and security needs.
    (4) Provide free facilities for isolation and quarantine.
    Individuals who test positive for COVID-19 must be placed in 
isolation and those with significant exposure must be quarantined for 
the length of time that they are potentially infectious. Many may not 
be able to do so safely at home, if they live in close quarters and 
multi-generational housing. Facilities should be made available free of 
charge to those who choose to isolate/quarantine elsewhere, including 
through the use of empty hotels and dormitories, and resources should 
be made available to reduce the economic impact of isolation and 
quarantine.
    Previously, I joined a group of bipartisan leaders to put forth a 
proposal to establish such isolation/quarantine facilities and to 
replace wages with a small sum--equivalent to what is paid for jury 
duty--to incentivize individuals to isolate and quarantine. Such a 
proposal is particularly needed for those who face substantial barriers 
to housing and who experience economic hardship. Importantly, it 
addresses the needs of individuals for whom missing work or finding 
alternate housing could mean sacrificing food on the table or shelter 
for their families.
    Establishing these facilities, rapidly, is something that should be 
led by FEMA. FEMA has shown that it can rapidly set up field hospitals. 
Isolation and quarantine facilities are just as critical for 
controlling the outbreak, and Congress should urgently request FEMA to 
oversee these efforts.
    (5) Suspend immigration enforcement for those seeking medical 
assistance for COVID-19.
    Public health hinges on public trust. Undocumented immigrants who 
fear deportation will be scared to seek help if they exhibit COVID-19 
symptoms, thereby posing a risk not only to themselves but their 
families and communities. Congress should prohibit ICE from accessing 
records of those seeking care for COVID-19 or in any way having access 
to facilities that offer testing and care for patients.This should also 
be made clear through public education campaigns in minority 
communities.
    Congress should also ask for temporary cessation of the Trump 
administration's public charge rule. This rule will serve to further 
delay legal immigrants from seeking necessary health care. It should be 
suspended for a 2-year period given the immediacy of the COVID-19 
pandemic.
    (6) Institute stronger worker protections.
    As a former local health official, I depended on the CDC for 
unambiguous guidance in the time of public health crises. At the 
beginning of the COVID-19 crisis, the CDC held daily briefings that 
were informative and instructive. Unfortunately, these briefings 
stopped at the beginning of March. Subsequent guidance from the CDC was 
delayed, and the language used in the guidelines was not the specific, 
directive, and clear guidance that I am used to seeing from them.
    What I would like to see from the CDC is, frankly, what I'm used to 
seeing from them in past administrations. For example, with States 
reopening, employees are told to go back to work. Exactly what 
standards must be met? People should not just be ``encouraged'' to do 
social distancing. What exact standards must be met in different types 
of workplaces, i.e. office environments vs meat-packing plants? Masks 
should not be worn, ``if feasible''. They should be required. I want to 
see a clear statement, such as: If these 15 criteria cannot be met, 
then reopening isn't safe and employees shouldn't be allowed back in 
these spaces. The Occupational Health and Safety Administration (OSHA) 
should then enforce these rules, as should local and State regulatory 
entities. If not, it is people of color and those who already face 
systemic disparities who will suffer the most.
    Congress must instruct CDC and OSHA to return to their mandates of 
protecting the health of the public and specifically workers. It should 
also do its part through agencies in the immediate purview of its 
committees. The Homeland Security Committee can, for example, ensure 
that all workplace protections are followed for TSA employees. This 
includes universal masking for all passengers in airport facilities, as 
this will protect the employees as well as the public. Such policies 
can set an example for not only the Federal Government but also private 
industries to secure protections for workers and the public--and in so 
doing, protect those most vulnerable including minorities.
    Furthermore, there must be stronger protections to limit the spread 
of COVID-19 in DHS-run immigration detention facilities. This includes 
ensuring access to PPE, appropriate protocols for isolation and 
quarantine, and criteria for release of detainees if cases reach a 
certain point determined by public health experts. As with all other 
workplaces, protecting the staff will also protect those they come into 
contact with and reduce community spread.
    (7) Prepare for the next surge.
    In March 2020, our country faced a situation that I never thought 
I'd experience as a health care provider: That we'd run out of personal 
protective equipment (PPE) and have to put our front-line clinicians in 
harm's way without something as basic as masks. We also came to the 
brink of running out of ventilators and other critical equipment. 
States were forced to bid against each other for these and other 
critical supplies, such as swabs and reagents for tests.
    There are a number of reasons why we were not prepared the first 
time around. Perhaps it was excusable then. But it is no longer. We 
know what is needed now, and we know that a second surge will almost 
certainly happen, especially with the convergence of COVID-19 with the 
flu season.
    Hospitals need to do their part to prepare for the second surge. 
Local and State policy makers must gird for this too. The Federal 
Government needs to urgently develop and implement a National, 
coordinated effort to secure needed supplies and have a plan for 
procurement and distribution. PPE should not only be available to 
front-line hospital workers, but also to others who must interface with 
many people everyday: Why shouldn't grocery cashiers, bus drivers, and 
nursing home attendants all have protection for themselves? Lack of 
action will affect everyone, but in particular those in our society who 
are the most vulnerable and who already face the greatest brunt of 
disparities.
    The Federal Government also needs to think now about issues that 
will come up in months to come. If there is an effective treatment 
developed, how will it be equitably distributed? If a limited supply of 
a vaccine becomes available, how can we ensure that it's not only those 
who are privileged who will access it? Lack of thoughtful planning will 
inevitably lead to a situation where those who are well-connected and 
well-resourced can obtain scarce resources, leaving many others to go 
without.
    Congress must take prompt action to urge the Trump administration 
to have a National coordinated strategy. This includes activating the 
Defense Production Act to ensure PPE, ventilators, and other critical 
supplies are produced in sufficient quantity.
    (8) Support safety-net public health systems.
    Primary care and community-based health care organizations have 
suffered substantially during the COVID-19 crisis, and it is not at all 
certain that many will survive in its aftermath. Home visitation and 
other community outreach programs have also had to curtail their work; 
many others may not be financially sustainable either. Efforts must be 
made to support these community-based programs that serve as the safety 
net for many.
    Already, local public health is chronically underfunded, with less 
than 3 percent of the estimated $3.6 trillion in annual health care 
spending directed toward public health and prevention; CDC funding for 
public health preparedness and response programs has been cut by half 
over the last decade, forcing local public health officials to make 
impossible tradeoffs between critical, life-saving programs that serve 
communities in need. There is an urgent need to strengthen local public 
health infrastructure not only to ensure a robust response to COVID-19 
and future crises, but also so that those interventions do not come at 
the cost of health and well-being and thus further perpetuate racial 
disparities.
    Flexibility is key in future funding. This pandemic has evolved 
quickly and local jurisdictions still best know the needs of their 
individual communities. They need to be able to adapt and respond to 
the needs they have rather than having to find justification to meet 
Congressional spending mandates.
    There must also be attention to previously marginalized areas of 
health care. Mental health is already a neglected area, and the need 
for behavioral health services can only be expected to rise with the 
convergence of health, economic, and societal crises. Any discussion of 
health care reform must take into account mental health as an 
equivalent need to physical health. There must be funding for programs 
to address trauma and build resiliency. And there needs to be 
recognition of the fact that racism is a public health issue--indeed a 
public health crisis in and of itself.
    As the Homeland Security Committee considers threats to critical 
infrastructure, I urge that you also consider the public health safety 
net to be part of National security and the backbone of critical 
infrastructure in the United States and around the world.
    (9) Increases health insurance coverage.
    More than 45 million people have lost their jobs during the 
pandemic, and with those jobs, many of them lost health insurance. 
That's on top of 27 million who were previously uninsured. Lack of 
insurance leads to a delay in treating underlying medical problems, 
which increases the likelihood of severe illness and death from COVID-
19. Since minorities constitute a higher percentage of the uninsured, 
increasing coverage will prevent further amplification of disparities. 
States can do this through expanding Medicaid and allowing open 
enrollment in exchanges.
    Congress must ensure health care coverage for all Americans, 
starting with front-line Federal workers. It should also press for 
National policies around evidence-based public health practices that 
reduce infection risk, including universal mask-wearing.
    (10) Target resources to address social determinants of health, 
with a focus on areas of greatest need.
    Disparities in health are inextricably linked to housing 
instability, food deserts, and lack of transportation access. These are 
all issues that contribute to poor health broadly and to disparities 
associated with COVID-19 specifically.
    Any reform of the health care system must take into account that 
these social determinants contribute even more to health than the 
health care that one receives. For example, there needs to be 
examination of affordable housing through investment in the 
construction and repair of potential housing options and support of 
policies that extend debt forgiveness and prevent eviction. Food 
insecurity can be addressed by expanding eligibility and granting 
waivers for food assistance programs such as WIC and SNAP, investing in 
local food banks, and incentivizing food delivery for low-income and 
vulnerable neighborhoods, while education should be made a priority by 
ensuring access to books, technology, and internet, all essential 
components of virtual instruction. As it relates to the aftermath of 
COVID-19, resources provided in the wake of the pandemic should also be 
specifically targeted to areas of greatest need.
                               conclusion
    To some, the 10 steps outlined here will seem too small in scope. I 
agree that there must be attention to longer-term issues like housing 
instability, income inequality, and structural racism that are 
inextricably linked to health disparities. But the COVID-19 pandemic is 
the life-or-death threat facing communities of color right now. The 
perfect cannot be the enemy of the good when there are specific actions 
that policy makers can take that will reduce disparities in COVID-19 
outcomes and, in so doing, improve health for all. The world that we 
strive for should be one in which the currency of inequality no longer 
equals years of life: One in which where children are born and what 
race they happen to be no longer determines whether they live.

    Mr. Payne. Thank you for your testimony.
    I now recognize Ms. Willis to summarize her statement for 5 
minutes.

 STATEMENT OF CHAUNCIA WILLIS, CO-FOUNDER AND CHIEF EXECUTIVE 
  OFFICER, INSTITUTE FOR DIVERSITY AND INCLUSION IN EMERGENCY 
                           MANAGEMENT

    Ms. Willis. Chairman Thompson, Chairman Payne, Ranking 
Member King, and Members of the Emergency Preparedness, 
Response, & Recovery Subcommittee, thank you for the 
opportunity to testify on this important topic.
    We are experiencing a paradigm shift across the United 
States as we respond to a pandemic, civil unrest, and systemic 
racism with an uncertain outlook for recovery or an adequate 
recovery plan. The issues plaguing America, including the 
disparities associated with COVID-19, are a result of policies 
enacted that have historically lacked diversity, inclusion, and 
equity.
    Of all the emergency management policies, only a few 
mention the word ``equity,'' and none address using equitable 
strategies to produce better outcomes for vulnerable groups. 
Disasters do not discriminate; however, people do. The health 
disparities seen during this pandemic can only be improved if 
we understand and operationalize equity.
    Equity must be present in all plans, policies, programs, 
and practices within the field of emergency management. Equity 
in all things. Equity is different from equality. For example, 
equality is about giving everyone a shoe. Equity is giving 
everyone a shoe that fits.
    In disaster management, it can no longer be about doing the 
most for the most, because, when we do the most for the most, 
it leaves a gap, and it [inaudible] who have the least. There 
are existing inequities within our country's very fabric that 
lead to disproportionate death and negative impacts for the 
most vulnerable groups among us.
    These inequities are rooted in systemic racism and an 
antipoverty mindset that exists. For example, the racist policy 
redlining has led to a lack of access to health care, exposure 
to environmental hazards, and so forth. The field of emergency 
management lacks diversity in representation, which influences 
the way policies and programs are crafted and negatively 
impacts outcomes in disaster for underrepresented groups.
    Currently, emergency management policies indicate that 
White male is the default setting and baseline standard for 
disaster response and recovery. In fact, the field of emergency 
management is overwhelmingly White, made up of over 80 percent 
White males in leadership positions. However, the communities 
we serve as emergency managers are very diverse, and the 
impacts of COVID-19 on diverse populations is significant.
    Current data shows that Black and indigenous Americans have 
experienced the highest rate of COVID-19 deaths in America. If 
they had died of COVID-19 at the same actual rate as Whites, 
about 16,000 Blacks, 2,200 Latinos, and 400 Native Americans 
would still be alive.
    America's disabled population is also suffering, because 
they lack access to testing and non-urgent health care. In 
addition, although people with disabilities are at high risk 
for COVID-19, there is a data gap in reporting that prevents 
equitable strategy development.
    Also, the needs of rural areas are unique, because they 
tend to have older populations with more chronic health 
conditions that raise the risk of developing more severe cases 
of COVID-19. They have fewer health care providers and more 
uninsured residents, meaning they must wait longer for 
treatment.
    The emergency management system must incorporate 
operationalized equity as a foundational principle for policies 
using social determinants of health to address the needs of 
diverse population. Our organization, I-DIEM, recommends the 
following: A thorough review of current emergency management 
policies, including an assessment of the intended and 
unintended effects of these policies; No. 2, intentional 
measurable integration of equity into FEMA doctrine, programs, 
grants, and contract awards; No. 3, ensure Federal funding is 
tied to demonstrated diversity, inclusion, and equity in all 
things, especially grants and contract awards. In addition, 
disaster plans and programs should be evaluated and held 
accountable, based on the performance of the equity strategy.
    No. 4, integrate equity and culturally competent thinking 
into emergency management curriculum and continuing education.
    Finally, invest a majority of preparedness, mitigation, and 
recovery funding in the most vulnerable communities, including 
communities of color. Emergency management must make diversity, 
inclusion, and equity a priority so that lives will be saved 
and not sacrificed in disaster.
    Thank you for your time.
    [The prepared statement of Ms. Willis follows:]
                 Prepared Statement of Chauncia Willis
                             July 10, 2020
    Chairman Thompson, Ranking Member King, Subcommittee Chairman 
Payne, and Members of the Emergency Preparedness, Response, and 
Recovery subcommittee, thank you the opportunity to testify on the 
direly important topic of health disparities and the novel coronavirus 
pandemic. My name is Chauncia Willis, and I am the co-founder and chief 
executive officer of the Institute for Diversity and Inclusion in 
Emergency Management (I-DIEM). As a career emergency manager, I have 
over 20 years of experience at the Federal, State, and local level, and 
within the private sector emergency management enterprise where I have 
experienced, first-hand, the disparate outcomes of disasters and 
crises. It is this experience that was foundational to the creation of 
I-DIEM, which works with local, State, and Federal agencies, research 
institutions, local organizations, the private sector, and philanthropy 
to eradicate bias and discrimination within emergency management and 
proactively develop data-driven, equitable solutions for underserved 
populations (women, people of color, people with disabilities, LGBTQ, 
various religious beliefs, low-income, and disadvantaged communities) 
before, during, and after disasters.
    We are experiencing unique circumstances across the United States 
as we respond to a pandemic, civil unrest, and systemic racism with an 
uncertain outlook for recovery or an adequate recovery plan. The issues 
plaguing America currently, including the disparities associated with 
COVID-19, are a result of policies enacted that have historically 
lacked diversity, inclusion, and equity. The negative outcomes that we 
see are not a result of crisis or disaster. Disasters do not 
discriminate, but people do. The health disparities seen during the 
COVID-19 pandemic are not a result of the pandemic, but of policy that 
has failed. Policy, that can only be improved if we understand and 
operationalize equity.
    From the start, the writing was on the wall and it was well 
understood that there would be disproportionate outcomes for 
marginalized groups. On March 12, the day before he took the reins of 
the COVID-19 response, I personally travelled to FEMA headquarters on 
behalf of I-DIEM and met with Administrator Gaynor to offer assistance 
in crafting an equitable FEMA response policy and measures to address 
the outbreak. Our organization, and its network of emergency managers 
and equity experts, has been actively supporting the response from the 
very beginning of the COVID-19 crisis. I-DIEM held 3 National 
Coronavirus Virtual Convenings early on to focus on the impacts of the 
pandemic on vulnerable communities and provide equitable response 
solutions for community organizations and government. Based on 
emergency management's history of inequitable responses, we knew COVID-
19 would devastate underserved groups. Leadership should be guided by 
equity and it must be integrated into all disaster management policies.
    Equity refers to fairness, justice, and impartiality. Not be 
confused with equality, which refers to equal sharing and division that 
keeps everyone at the same level, equity is a needs-based approach. 
Equality is not affected by the needs of people or society as it 
promotes sameness.\1\ Historically, America has not held true to the 
phrase ``all men are created equal,'' and that pivotal piece of the 
Constitution was not referencing women or people of color who were seen 
as less than white men. Foundationally, the Constitution and its 
policies created a system of class and privilege that resulted in the 
outcomes that we see today. America must be held accountable for its 
response to disasters that have historically sacrificed black and brown 
people of color as seen in the Yellow Fever outbreak of New Orleans in 
1850 where people of color were said to be ``immune to the disease'' as 
a justification for their continued slavery during an outbreak because 
it benefited the economy. Or, the slavery of an essential worker 
designation as people of color are more likely to work in service 
industries placing a vulnerable population at increased risk for 
illness or death given the disparities data for COVID-19. At what point 
are the lives of underserved populations no longer acceptable losses?
---------------------------------------------------------------------------
    \1\ Adhikara, S. (2017). Equity vs. Equality. Health Programs and 
Policies.
---------------------------------------------------------------------------
    We have to break away from utilizing ``white'' as the default 
setting for policy and action. Creating policy based on how the rest of 
society compares to white men is a fight for equality and sameness; a 
fight that focuses on doing the most for those with the most. America 
has shown that we are not all treated the same and this on-going 
inequitable approach to policy and practice has shown us that doing so 
is ineffective. The United States spends more money on health care 
globally, but has worse health outcomes than comparable countries 
around the globe.\2\ We spend billions on the rising costs of 
disasters, without much significant change in disaster mortality since 
the 1940's.\3\ This pandemic demonstrates that current policies are 
ineffective and inequitable. In addition, it must be acknowledged that 
emergency management has experienced a failed response in partnership 
with public health due to political interference and decreased reliance 
on scientific data to inform response. Consequently, the COVID-19 
response is an indictment against the emergency management profession 
and its failure to integrate equity in all policies.
---------------------------------------------------------------------------
    \2\ American Public Health Association [APHA] (n.d.). Health 
rankings. https://www.apha.org/topics-and-issues/health-rankings.
    \3\ Roberts, P.S. (2013). Disasters and the American State: How 
politicians, bureaucrats, and the public prepare for the unexpected. 
Cambridge University Press: New York, NY.
---------------------------------------------------------------------------
    It is my hope, that as we address COVID-19 from an emergency 
management perspective, we begin to understand the importance of social 
determinants of health (SDOH) in the emergency management enterprise as 
they are the underpinnings of vulnerability, disparity, and inequity. 
Incorporating social determinants of health in emergency preparedness, 
response, and recovery enhances resilience which can improve disaster 
outcomes. As COVID-19 impacts our economy and society, we will see an 
increase in newly vulnerable populations while conditions worsen for 
previously vulnerable populations. This will prove costly for the 
upcoming disaster season if we continue to function without 
operationalizing equity. Moving forward, key areas of my testimony 
include:
  <bullet> The Impact of COVID-19 from a Social Determinants of Health 
        Perspective
  <bullet> Solutions and Strategies for Improving Equity During the 
        COVID-19 Pandemic
  <bullet> Success Stories: Highlight Successes in Equitable Approaches 
        to Emergency Management.
             the impact of covid-19 from a sdoh perspective
    Social determinants of health (SDOH) are conditions in the 
environment in which people are born, live, work, play, worship, and 
age that affect a wide range of health, functioning, and quality-of-
life (QOL) outcomes and risks.\4\ These determinants are a balance 
between our social lives and physical environments that impact our QOL 
including:
---------------------------------------------------------------------------
    \4\ Centers for Disease Control and Prevention [CDC] (2018). Social 
determinants of health: Know what affects health. CDC. https://
www.cdc.gov/socialdeterminants/index.htm.
---------------------------------------------------------------------------
  <bullet> Availability of resources to meet basic needs (safe housing 
        and food markets)
  <bullet> Access to educational, economic, and job opportunities
  <bullet> Access to health care
  <bullet> Availability of community-based resources in support 
        community living (recreational opportunities and activities)
  <bullet> Transportation options
  <bullet> Public safety (Police, Fire, EMS, 911 Communications)
  <bullet> Social norms and attitudes (e.g. discrimination, racism, and 
        distrust of the government)
  <bullet> Exposure to crime, violence, and social disorder
  <bullet> Socioeconomic conditions (e.g. poverty, low-income housing)
  <bullet> Language/literacy
  <bullet> Access to information and technology
  <bullet> Culture
  <bullet> Natural environment (e.g. green space) and weather (climate 
        change)
  <bullet> Built environment
  <bullet> Worksites, schools, and recreational settings
  <bullet> Housing and community design
  <bullet> Exposure to hazards (toxic, physical), and
  <bullet> Physical barriers (people with disabilities).\5\
---------------------------------------------------------------------------
    \5\ Healthy People 2020 (2020). Social determinants of health. 
Office of Disease Prevention and Health Promotion (ODPHP). https://
www.healthypeople.gov/2020/topics-objectives/topic/social-determinants-
of-health.
---------------------------------------------------------------------------
    As SDOH impact up to 80 percent of health outcomes,\6\ when 
differences in any of these factors exist and create barriers between 
the general population, typically non-Hispanic white males as the 
control group, and the most vulnerable populations we see disparity.\7\ 
As emergency managers, we plan with many of these of factors in 
consideration. We perform risk analysis, risk assessments, develop 
flood plans that include housing and our built environments, coordinate 
efforts with transportation, and examine potential barriers, however, 
we do this as an overall function our emergency management 
responsibility. Emergency managers give equal attention to these issues 
is a structured approach to handling crisis and disasters. However, 
this approach does not view disasters through an equitable lens. Equity 
is achieved when every person has the opportunity to attain their full 
health potential and no one is disadvantaged because of socially-
determined circumstances.\8\ Emergency management planning will not 
truly be effective without equity which takes accounts for disparities 
that exist based on social determinants of health. Historically, this 
has been an on-going issue and the COVID-19 pandemic has further 
exposed the reality of health disparities in the United States.\3\
---------------------------------------------------------------------------
    \6\ Alleyne, K.R. (2020). We must address the social determinants 
affecting the black community to defeat COVID-19. The Washington Post. 
Published: April 26, 2020.
    \7\ World Health Organization [WHO] (2012). Emergency risk 
management for health: Overview. Global Platform: Emergency Risk 
Management for Health Fact Sheets--2013.
    \8\ CDC (2020). Health equity. National Center for Chronic Disease 
Prevention and Health Promotion (NCCDPHP). https://www.cdc.gov/
chronicdisease/healthequity/index.htm.
---------------------------------------------------------------------------
               social determinants of health and covid-19
    From a public health perspective, the poor and socially vulnerable 
disproportionately suffer the burden of disease.\9\ \10\ \11\ \12\ From 
a disaster science perspective, populations that were suffering prior 
to disaster tend to experience relatively poor outcomes.\13\ Combined, 
the concept of social vulnerability has become a growing theme in 
emergency management giving rise to frameworks such as the Social 
Determinants of Vulnerability Framework.\14\ Social vulnerability is 
the susceptibility of social groups to the impacts of hazards such as 
suffering disproportionate death, injury, loss, or disruption of 
livelihood, as well as resiliency, or ability to adapt from 
disaster.\15\ The framework examines 7 inter-related factors that drive 
vulnerability: Children, people with disabilities, elderly, chronic and 
acute medical illness, social isolation, low-to-no income, and 
practical approaches to risk reduction.\11\ Each of these are directly 
related to social determinants of health and highlight at-risk 
populations, particularly, as they relate to COVID-19.
---------------------------------------------------------------------------
    \9\ Adler, N. & Stewart, J. (2010). The biology of disadvantaged: 
socioeconomic status and health. Ann NY Acad. Sci., 1(1186), 275.
    \10\ Braveman, P., Egerter, S., & Williams, D.R. (2011). The social 
determinants of health: coming of age. Annual Review of Public Health, 
32(1), 381-398.
    \11\ Marmot, M. (2005). Social determinants of health inequities. 
Public Health, 365, pg. 6.
    \12\ Mikkonen, J., Raphael, D. (2010). Social determinants of 
health: The Canadian facts. York University School of Health Policy and 
Management.
    \13\ Tierney, K. & Oliver-Smith, A. (2012). Social dimensions of 
disaster recovery. International Journal of Mass Emergencies and 
Disasters, 30(2), pp. 123-146.
    \14\ Martin, S.A. (2014). A framework to understand the 
relationship between social factors that reduce resilience in cities: 
Application to the city of Boston. International Journal of Disaster 
Risk Reduction, 12, 53-80.
    \15\ Cutter, S.L. & Enrich, C.T. (2006). Moral hazard, social 
catastrophe: The changing face of vulnerability along the hurricane 
coasts. Ann. Am. Acad. Polit. Sci., 604(1), 102-112.
---------------------------------------------------------------------------
    Attention to disparities in incidence, prevalence, and mortality 
associated with COVID-19 in racial/ethnic communities is increasing. 
Blacks comprise 13 percent of the U.S. population but account for 28 
percent of COVID-19 cases and 33 percent of hospitalizations.\16\ These 
numbers are increasingly alarming in local, community settings. A 
recent study in Queens, NY highlighted that COVID-19 cases were 30 
percent greater in communities with extremely high cases versus 
moderate cases.\17\ Out of 6 communities (Extremely high cases=3; 
Moderate cases=3), communities with extremely high cases were 
predominantly black vs. predominantly white, had a significantly higher 
percentage of persons with less than a high school diploma, were 40 
percent more uninsured, and had higher rates of chronic and acute 
conditions (diabetes, obesity, and hypertension).\14\ \15\ In Chicago, 
more than 50 percent of COVID-19 cases and nearly 70 percent of deaths 
involve black individuals, although blacks only comprise 30 percent of 
the population. In Louisiana, 70.5 percent of deaths have occurred 
among Black persons although they only comprise 32 percent of the State 
population, and in Michigan, 40 percent of deaths have occurred among 
Black individuals who comprise 14 percent of the population \18\
---------------------------------------------------------------------------
    \16\ Turner-Musa, J., Ajayi, O., & Kemp, L. (2020). Examining 
social determinants of health, stigma, and COVID-19 disparities. 
Healthcare, 8(168), 1-7.
    \17\ Harlem, G. & Lynn, M. (2020). Descriptive analysis of social 
determinant factors in urban communities affected by COVID-19. Journal 
of Public Health, 1-4.
    \18\ Yance, C.W. (2020). COVID-19 and African-Americans. JAMA--
Journal of the American Medical Association, 323(19), 1891-1892.
---------------------------------------------------------------------------
    Accounting for 18 percent of the U.S. population, Hispanics/Latinx 
populations comprise 28 percent of COVID-19 cases in the United States 
and are among the highest rates of mortality in the Nation. 
Specifically, Hispanic/Latinx populations have a mortality rate 4 times 
than that of non-Hispanic whites only following Blacks and American 
Indians/Alaskan Natives who are 5 times more likely to be hospitalized 
or die as a result of COVID-19.\19\ As of June 12, 2020, age-adjusted 
hospitalization rates are the highest among American Indian/Alaskan 
Native populations \16\ which is consistent, despite sparse data 
although highlights from data available through the Indian Health 
Service show disproportionate rates of infection among States with 
higher concentrations of Native Americans.\13\ This data is consistent 
beyond the United States as Data from the National Office of Statistics 
in the United Kingdom show that Blacks are 4.2-4.3 times more likely to 
die from COVID-19 than whites in England and Wales while also 
highlighting that Bangladeshis, Pakistanis, Indians, and those of mixed 
ethnicities are at increased risk of death from COVID-19.\13\ Each of 
these disparities have commonalities that link them when examining 
social determinants of health.
---------------------------------------------------------------------------
    \19\ CDC (2020). COVID-19 in racial ethnic and minority groups. 
Coronavirus Disease 2019 (COVID-19). https://www.cdc.gov/coronavirus/
2019-ncov/need-extra-precautions/racial-ethnic-minorities.html.
---------------------------------------------------------------------------
    Social determinants affecting these populations are believed to 
make them more vulnerable to the virus including lack of access to 
health care, economic insecurity, poor neighborhood and housing 
conditions, and availability of resources.\13\ Lower access to health 
care is correlated to uninsured populations, testing, and chronic 
conditions. Decreased access to health care contributes to decreased 
testing and testing sites which is alarming as 30 million people do not 
have health insurance and this is highly likely to be the case in low-
to-no income communities that are characterized by racial/ethnic 
minorities. Additionally, among the risk factors for COVID-19 are 
chronic conditions such as cardiovascular disease, chronic respiratory 
disease, hypertension, and cancer which are all associated with an 
increased risk of death \20\ of which Blacks have higher mortality 
rates in all categories.\21\ Lack of access to transportation and 
reduced train and bus schedules in COVID-19 places more people onto 
fewer transports decreasing the ability for proper social distancing 
\3\ while also increasing the risk of infection due to overcrowding.
---------------------------------------------------------------------------
    \20\ Jordan, R.E., Adab, P., & Cheng, K.K. (2020). COVID-19: Risk 
factors for severe disease and death. British Medical Journal, 
368(1198), 1-2.
    \21\ Cunningham, T.J., Croft, J.B., Liu, Y., Lu, H., Elke, P.I., & 
Giles, W.H. (2017). Vital signs: Racial disparities in age-specific 
mortality among blacks or African Americans--United States, 1999-2015. 
Morbidity and Mortality Weekly Report (MMWR), 66(17), 444-456.
---------------------------------------------------------------------------
    Housing and neighborhood density also contribute to overcrowding 
where racial/ethnic minorities are more likely to live in densely-
populated areas increasing contact with other people. Moreover, racial/
ethnic minorities are more likely to live in neighborhoods with a lack 
of healthy food options, recreational facilities, safety, and lighting 
which contributes to health conditions such as diabetes and obesity 
which are risk factors for COVID-19.\13\ Much of this is a result of 
income inequality where we see disparities in the labor and economic 
system.
    In the United States, white workers earn 28 percent more than Black 
workers and 35 percent more than Hispanic/Latinx workers. Moreover, 
along racial/ethnic minorities, blacks and Hispanics or more likely to 
have service, transportation, or jobs in sales which classifies them as 
``essential workers'' who must continue to work during the pandemic 
without ``work-from-home'' options, paid sick leave, or adequate health 
coverage. This is further exacerbated by job loss during the pandemic 
while research shows that Blacks and Hispanics/Latinx populations are 
less likely to have savings to cover living expenses for at least 3 
months \22\ suggesting that these populations may not have access to 
the health care or necessities needed which could worsen outcomes.\13\
---------------------------------------------------------------------------
    \22\ Parker, K., Horowitz, J.M., & Brown, A. (2020). About half of 
lower-income Americans report household job or wage loss due to COVID-
19. Pew Research Center: Social and Demographic Trends. https://
www.pewsocialtrends.org/2020/04/21/about-half-of-lower-income-
americans-report-household-job-or-wage-loss-due-to-COVID-19/.
---------------------------------------------------------------------------
    Each of these social determinants are considerations that must be 
included in planning. Measures that do not account for social 
determinants of health have contributed to the disparities and negative 
outcomes totaling $802 billion dollars in disaster funding over the 
last decade \23\ and a 17.7 percent expenditure of the Gross Domestic 
Product (GDP) on health care \24\ which does not justify the costs 
versus poor health outcomes. The focus on ``flattening-the-curve'' 
instead of addressing risk and vulnerability can have negative effects. 
Solutions should focus on not producing new forms of inequity and 
disparity by focusing on segments of the population that are already 
vulnerable, such as racially marginalized, and economically 
disadvantaged populations, as a foundation for equitable 
strategies.\25\
---------------------------------------------------------------------------
    \23\ Smith, A.B. (2020). 2010-2019: A landmark decade of U.S. 
billion-dollar weather and climate disasters. National Oceanic and 
Atmospheric Administration. https://www.climate.gov/news-features/
blogs/beyond-data/2010-2019-landmark-decade-us-billion-dollar-weather-
and-climate.
    \24\ Rollston, R. & Galea, S. (2020). COVID-19 and social 
determinants of health. American Journal of Health Promotion, 34(6), 
687-689.
    \25\ Rangel, J.C., Ranade, S., Stucliffe, P., Mykhalovskiy, E., 
Gastaldo, D., & Eakin, K. (2020). COVID-19 policy measures--advocating 
for the inclusion of the social determinants of health in modelling and 
decision making. Journal of Evaluation in Clinical Practice, 1-3.
---------------------------------------------------------------------------
   solutions and strategies for improving equity during the covid-19 
                                pandemic
    Social determinants of health are present through all aspects of 
the COVID-19 pandemic. As the Federal Emergency Management Agency 
(FEMA) leads whole-of-America coronavirus operations,\26\ along with 
White House Coronavirus Task Force, and the Department of Health and 
Human Services (DHHS), the pandemic highlights the very important 
intersection of public health and emergency management that could 
benefit from integrative policies and approaches but often operate in 
silos negatively impacted by flow of information and coordination 
between the CDC and ASPR guidelines under DHHS, while emergency 
management follows guidelines from the Department of Homeland Security 
(DHS) which has an entirely different focal area.\27\ Fortunately, and 
unfortunately, COVID-19 has exhibited that this silo between public 
health and emergency management cannot exist as both disciplines 
operate with similar goals and coordinated response which is why 
emergency management planning should focus on social determinants of 
health which can improve coordinated efforts in key issues such as 
pandemic response and recovery. In such, solutions in pandemic response 
should focus on 5 key components:
---------------------------------------------------------------------------
    \26\ FEMA (2020). FEMA leads whole-of-America coronavirus 
operations. FEMA. https://www.fema.gov/blog/2020-03-24/fema-leads-
whole-america-coronavirus-operations.
    \27\ Jacobson, P.D., Wasserman, J., Botoseneanu, A., Silverstein, 
A., & Wu, H.W. (2012). The role of law in public health preparedness: 
Opportunities and challenges. Journal of Health Politics, Policy, and 
Law, 37(2), 297-328.
---------------------------------------------------------------------------
  <bullet> Thoroughly reviewing current emergency management policy, 
        including the intended and unintended effects of policies.
  <bullet> Integrating equity into the current FEMA doctrine and 
        programs, including grants, to provide recommendations on areas 
        of opportunities for future practice and funding.
  <bullet> Integrating diversity, inclusion, and equity on 
        disproportionate impacts of crisis and disaster into FEMA's 
        planning, guidance, and priorities including equity-related 
        performance measures in EM grants and other grant requirements.
  <bullet> Implementing equity and culturally-competent thinking into 
        emergency management curriculum (academia) and continuing 
        education/training (practice).
  <bullet> Investment in integrative technology toward predictive 
        modeling to prevent inequitable outcomes.
thoroughly reviewing current emergency management policy, including the 
              intended and unintended effects of policies
    Throughout history, emergency management policy has been a constant 
battle between civil defense and terrorism, and natural disasters. What 
remains constant in this wavering battle are policies based on a white-
default setting. The majority of emergency management policy has not 
been inclusive of people of color. This is of paramount importance 
because the lives of Black, brown, and indigenous people in America 
depend on these policies. As evident by the protests, people of color 
are tired of seeing the worst outcomes. This includes life and disaster 
that has impacted the United States including COVID-19. Being a racial/
ethnic minority should not be a death sentence. It is a clear sign that 
policy is ineffective toward underserved, marginalized populations.
    Federal emergency management laws and policies govern or affect 
State emergency preparedness and response activities. Key laws and 
policies include the: Emergency Management Assistance Compact (EMAC), 
Federal Employees Compensation Act (FECA), Federal Tort Claims Act 
(FTCA), National Emergencies Act (NEA), Pandemic and All Hazards 
Preparedness Act (PAHPA), Public Health Service Act Section 319, Public 
Readiness and Emergency Preparedness Act (PREP), Robert T. Stafford 
Disaster Relief and Emergency Assistance Act (Stafford Act), Social 
Security Act Section 1135, Volunteer Protect Act, Homeland Security 
Policy Directives (HSPDs) and Presidential Policy Directives (PPDs), 
National Incident Management System (NIMS), National Response Framework 
(NRF), and National Strategy Documents. Content analysis of each of 
these laws and policies reveal that each policy lacked context on the 
terms minority, vulnerable, diversity, inclusion, underserved, ethnic, 
ethnicity, black, Hispanic, indigenous, and marginalized. A few, such 
as the Stafford Act, included `race' in a standard non-discriminatory 
statement. The term `equity' was commonly used in policies and laws 
regarding housing assistance in disasters, but not regarding equitable 
strategy. This is evident in a the current state of disaster loans 
which entrench disparities in black communities by basing loans on 
credit scores which results in black home and business owners receiving 
fewer Federal loans than white counterparts.\28\
---------------------------------------------------------------------------
    \28\ Frank, T. (2020). Disaster loans entrench disparities in Black 
communities. Policy and Ethics. https://www.scientificamerican.com/
article/disaster-loans-entrench-disparities-in-black-communities/.
---------------------------------------------------------------------------
    This is unacceptable. It is imperative that we thoroughly examine 
how policies have been crafted and implemented within emergency 
management to determine whether equity has been integrated. An analysis 
of policy can highlight areas within policy that is inequitable, 
unjust, and promotes oppression within the policy system. Identifying 
how policy contributes to vulnerability can help reshape an equitable 
line of thinking into the policy process; one that is diverse, 
inclusive, culturally competent, and improves resilience to crisis and 
disasters.
    integrating equity into the current fema doctrine and programs, 
including grants, to provide recommendations on areas of opportunities 
                    for future practice and funding
    Similar to law and policy, we must thoroughly review and seek to 
integrate equity into FEMA doctrine, programs, grants, and contracts. 
FEMA programs, grants, and contracts are huge investments, however, 
failure to invest in equitable solutions is a waste of time and money. 
Typically, those who write the best grants will receive those grants 
without respect to the needs of the community. Grants supporting the 
development and implementation of programs should be an investment that 
is based on the current state of our communities. For example, an 
investment into local, community-based business would support the local 
economy post-disaster, improve recovery, and improve resilience. 
However, awarding grants to key figures negates the community overall. 
Further, contracts awarded should be representative of a diverse 
portfolio of minority-owned businesses and contractors. Previously, 
contracts awarded have been disproportionate as evident by the 1 
percent of contracts awarded to minority contractors in response to 
Hurricane Katrina. It would be interesting to note the percentage of 
women and minority contractors that have received COVID-19 response/
recovery funding, thus far. Our investment should be one that builds 
resilience which cannot be ascertained without addressing 
vulnerability. This was a key focal point in I-DIEM's commentary and 
contributions to the Building Resilient Infrastructure and Communities 
(BRIC) program in which I-DIEM advocated for equitable community 
capacity building to improve resilience. Failure to incorporate equity 
in programs, grants, and contracts results in high investment spending 
that leads to higher spending in response and recovery. In such, 
examining doctrine, programs, grants, and contracts can identify 
whether equity is integrated within the system, identify further 
solutions that are equitable, and recommend more impactful alternatives 
for program, grants, and contract funding that promotes reducing 
vulnerability and increasing resilience through equity.
   integrating diversity, inclusion, and equity on disproportionate 
  impacts of crisis and disaster into fema's planning, guidance, and 
 priorities including equity-related performance measures in em grants 
                         and grant requirements
    Eighty percent of emergency management leadership is comprised of 
white males. Thus, the decision making behind FEMA's planning, 
guidance, and priorities lacks diversity, is not inclusive of the 
voices affected by these decisions and is not equitable. With 21 years 
of emergency management experience, I truly believe that emergency 
managers have a huge job and huge responsibility with a desire to do 
what's best, but politicians are politically focused often overlooking 
the recommendations of emergency managers. I have experienced this on 
many occasions where I have recommended that our Government focuses on 
underserved populations. I have been told, on many occasions, that 
marginalized groups are not a major focus in the list of priorities for 
Government. Unfortunately, marginalized groups do not have a seat at 
the table or a microphone to voice their concerns, especially in 
emergency management. Subsequently, as emergency management aims to 
reduce the harmful effects of all hazards including disasters including 
the loss of life and property, it is our responsibility to represent 
the populations that we intend to protect as public servants. For this 
reason, we have an obligation to be representative of the populations 
that we serve which is best facilitated through diversifying our 
leadership. This allows for the integration of diversity, inclusion, 
and equity in FEMA's planning, guiding, and priorities. This approach 
should be all-inclusive, which the FEMA's Whole Community Approach 
recommends, with respect to looking at communities from an equitable 
perspective.
    Further, large-scale grant funding in the health sector is 
requiring outreach and engagement components to be included in grant 
proposals as a requirement for funding. Additionally, monitoring and 
measuring systems are integrated into grants that ensure compliance. 
Emergency management planning, guidance, and funding should focus on 
incorporating equity into emergency management planning that ensures 
that funding results in actionable, equitable solutions. Performance 
monitoring and measures should be incorporated to ensure compliance. 
More importantly, most emergency management grants and programs do not 
include an evaluation component that would be beneficial to identifying 
strengths, weakness, opportunities, and threats for the overall program 
as well as specific equity-related goals and objectives.
 implementing equity and culturally competent thinking into emergency 
  management curriculum (academia) and continuing education/training 
                               (practice)
    The COVID-19 pandemic spotlights how failure to incorporate 
research and data-driven science to make risk-informed decisions a 
priority over risk-based decisions can have negative effects. The 
rising number of confirmed cases and deaths earmarked by notable 
disparities suggests that social determinants of health, cultural-
competence, and an understanding of public administration and policy 
are imperative to improving emergency management outcomes. As emergency 
management continues to grow in the world of academia, it is important 
that we begin incorporating social determinants of health into 
emergency management curriculum as we prepared the next generation of 
future emergency management leaders. The growth of emergency management 
programs across the country at the associates, bachelors, masters, and 
doctoral level represents an investment in emergency management 
enterprise. We are doing a disservice to the field if we do not 
adequately focus on the root causes of disparity and vulnerability that 
is counterintuitive to the outcomes we seek to achieve. This same 
notion applies to continuing education/training for emergency managers. 
As practitioners, it is essential that we stay educated and current in 
our practice of emergency management. We see this in tabletop exercises 
and drills across the field of emergency management that maintain level 
of preparedness necessary to negate the devastating effects of 
disasters. Implementing social determinants of health and equity into 
continuing education and training is beneficial for both emergency 
managers and the communities we serve.
  investment in integrative technology toward predictive modeling to 
                      prevent inequitable outcomes
    Emergency Management must rethink its focus on excessive spending 
on incident response technology and focus more on research-driven, 
community data that is already available. This data can inform 
predictive modeling. Predictive modeling can be applied to any type of 
event and analyzes historical and current data to generate a model that 
helps predict future outcomes. To achieve this, emergency managers 
should seek partnerships with academic institutions and technology 
firms to develop more predictive technology. Many universities have the 
capacity and funding to develop integrative tools such as predictive 
modeling to assist in emergency management especially with the 
expansion of emergency management programs. This approach allows 
opportunities for collaborative community work that is mutually 
beneficial while also bridging the gap between emergency management 
academia and practice.
    Additionally, partnerships with technology firms will allow for a 
strong research background and robust technology innovation that 
support equitable solutions. For example, I-DIEM's partnership with 
Aleria Research, a nonprofit research organization that leverages 
science and technology to improve diversity and inclusion, has been 
contributory to grant opportunities and funding that focuses on the 
develop of a simulated predictive modeling system that focuses on 
community education and preparedness as well as recovery planning. 
These opportunities allow for innovative and integrative approaches to 
equity that aim to improve the emergency management enterprise through 
technology.
                               conclusion
    The key to influential change is leveraging mutual aid, coalitions, 
leadership, and advocacy during COVID-19. Social determinants of health 
help identify areas of disparity and inequity and should be a focal 
point of emergency management moving forward, but progress cannot be 
made without effective change in policy. The pandemic is a devastating 
period for the United States, but it provides opportunity to improve 
upon systems that contributed to disparities and negative outcomes. In 
emergency management, many of the key policies have been guided by 
disaster. For example, the Department of Homeland Security was created 
in the wake of 9/11. We have the opportunity to utilize what we have 
always known, and what we see on full display during the pandemic, to 
improve. The mutual aid between FEMA and public health can be leveraged 
along with the many organizations involved in the response and future 
recovery of COVID-19.
    Leadership can take more diverse, inclusive, and equitable forms as 
we see transitions in global responses to systemic racism and civil 
unrest. The time is now to understand and integrate social determinants 
of health into emergency management as a foundation to diversity, 
inclusion, and equity. This must be a focal point as the disparities 
present in COVID-19 are the same disparities that are present in 
disasters. The same social determinants of health that guide advocacy 
for health equity are inherent in all phases of the disaster management 
cycle. The key to adopting these determinants into practice is 
operationalizing equity which is achieved by looking at all of our key 
decisions through an equitable lens. We should be advocating for 
disaster equity. We should be looking at equity in emergency management 
within all policies. This is a key focal point of the ``Health In All 
Policies (HIAP)'' strategy that integrates and articulates health 
considerations into policy making across sections to improve the health 
and communities of all people.\29\ We must be equally as innovative in 
emergency management to improve disaster outcomes across our 
underserved, and marginalized communities. This is especially important 
with the impending hurricane season.
---------------------------------------------------------------------------
    \29\ CDC (2016). Health in all policies. Office of the Associate 
Director for Policy and Strategy. https://www.cdc.gov/policy/hiap/
index.html#::text=Health%20in%20All%20Policies%20- 
%28HiAP%29%20is%20a%20collaborative,beyond%20the%20scope%20of%20traditio
nal%20pub- lic%20health%20activities.
---------------------------------------------------------------------------
                              future focus
    America is still in the midst of response to COVID-19. Response is 
typically the shortest phase of disaster, but due to the lack of 
Federal strategy, many States are struggling to contain and mitigate 
the pandemic impacts. Imagine, for a moment, if equity had been 
considered at the start of this terrible health outbreak. Health care 
workers, many who are women of color, would have been prioritized in 
receiving personal protective equipment (PPE). A strategy to provide 
States with the resources they need would have been developed, rather 
than one that promoted competition among States. Leadership must be 
guided by equity, not political maneuvering and capitalism, at the 
expense of human lives.

    Mr. Payne. Thank you for your testimony. I would like to 
thank all the witnesses for their testimony. I remind the 
subcommittee that we will each have 5 minutes to question the 
panel.
    I will now recognize myself, but before I do that, I ask 
unanimous consent that Congresswoman Jackson Lee be permitted 
to sit and question the witnesses. Without objection.
    So, Ms. Willis, FEMA has a history of emergency responses 
plagued with racial and socioeconomic disparities. Despite this 
history, the Trump administration has made little to no effort 
to assure communities that the agency will respond to the 
pandemic in an equitable manner. With preexisting disparities 
in mind, what types of emergency response strategies should our 
country utilize to respond to the COVID-19 pandemic?
    Ms. Willis. Thank you, sir. That is a great question.
    One of the most important strategies will be to ensure that 
we are training our emergency managers in equity, to assist 
them in focusing policy creation and implementation on equity 
and vulnerable groups.
    Right now, within FEMA and emergency management as a whole, 
equity is not a priority, and, in fact, it is not seen as a 
priority in many areas of disaster management, and that is a 
significant problem that must be addressed. We need an equity 
revolution. We must confront the intersection of race and 
poverty on biased disaster management policies as well. A 
thorough review of policies is needed, and more funding must go 
into equity training and education.
    Thank you.
    Mr. Payne. Am I correct in saying that we are not asking 
for special treatment in these communities; we are asking for 
equitable treatment in these communities? Is that correct?
    Ms. Willis. That is absolutely correct.
    Mr. Payne. Thank you.
    Ms. Willis. Providing equity in disaster should not be an 
``other.'' It should be----
    Mr. Payne. Thank you.
    Ms. Willis [continuing]. A priority. Thank you.
    Mr. Payne. Thank you very much.
    Dr. Wen and Benjamin, when asked about racial disparities 
at a Congressional hearing in June, Dr. Fauci said that 
institutional racism contributed to the disproportionate impact 
of COVID-19 on African Americans and that they have suffered 
from race----
    Ms. Jackson Lee. How do I take this off silent----
    Mr. Payne. Excuse me.
    Ms. Jackson Lee [continuing]. Because I don't want to 
miss----
    Mr. Payne. Somebody needs to mute, please. I am sorry.
    Dr. Fauci was saying that the communities suffered from 
racism for a very, very long period of time. If the Trump 
administration has known of these factors for a long time, why 
has the administration not done more to address these problems? 
Either one of you can start.
    Dr. Benjamin. Sure. I would be happy to start.
    You know, there are--if you think about the response, there 
are really 3 areas where the administration can step up a bit 
more. I know some of it, they have done, but there is still 
more things that they can do.
    No. 1, testing. Early on, as you know, there wasn't a lot 
of tests, but, when we did have tests, they weren't in the 
hood, quite frankly. They weren't easy to get to. The drive-
through testing, if you didn't have a car, you couldn't get 
there. You have got to make sure that testing is available to 
all parts of the community, to people that have shift work, to 
people that don't have paid sick leave, so they can actually 
get to the testing.
    Then we need to make sure that that testing is available. 
You know, television pictures that we were seeing in the last 
couple of weeks of long lines of people waiting hours to get 
tested are, frankly, unacceptable for every citizen within our 
country, and specifically for communities of people that are at 
higher risk. You know, you are sitting in a line 3 hours when 
you have symptoms and you don't feel well, and from a clinical 
perspective, just makes no sense, of course.
    Second, we know that the whole issue of access to care 
remains a big issue. I applaud Ranking Member King and you and 
all about community health centers, and that is wonderful, but 
every citizen in this country ought to have access to quality, 
affordable health care. That is important. We have to get 
Medicaid coverage to all of our low-income citizens, and we 
need to stop fighting about that. Health care is a fundamental 
human right, and we need to fix that right now.
    I think the third thing is, we have got to really deal with 
this issue of misinformation and disinformation. One of the 
things we did during the AIDS epidemic is we did a lot of work 
educating faith leaders, barbers, beauticians, anyone who was 
an influencer in our community to get to communities of color, 
to get to communities that had languages other than English as 
their first language, to make sure they understand the disease 
process and how they can get help, and what they can do to 
protect themselves. We haven't----
    Mr. Payne. Thank you.
    Dr. Benjamin [continuing]. Done that.
    Mr. Payne. Thank you, sir.
    Dr. Wen, I am going to--my time has expired, so----
    Dr. Benjamin. Oh, I am sorry.
    Mr. Payne [continuing]. I am going to have to yield. I am 
sorry.
    I now recognize the Ranking Member of the subcommittee, the 
gentleman from New York, Mr. King, for questions.
    Mr. King. OK. Thank you, Mr. Chairman.
    I would like to focus my questions to Dr. Wen, at least to 
start. In New York and Long Island, we have a particular issue 
with the fact of transportation.
    The New York City subway system carries millions of people 
every day. The Long Island Railroad carries hundreds of 
thousands of people in and out of Manhattan to Brooklyn and 
back, and there is tremendous transportation back and forth. We 
are talking about millions and millions of people are on the 
trains every day.
    I am trying to think about the next pandemic or the second 
wave of this one. What can you suggest that we do to try to 
anticipate the problems we are going to get from 
transportation, having so many people packed together on these 
trains, and as far as having testing sites, and ways to detect 
it? Because, again, that is where you have people of all 
economic strata, races, religions, everyone traveling together 
in very close quarters, both from low-income communities--low-
income communities, high-income communities, from the suburbs, 
the inner cities, all coming together. Can you think of any way 
we can do it to minimize the impact of the, you know, second 
wave spreading or another pandemic after this?
    Dr. Wen. Yes. Thank you very much, Ranking Member. This is 
an excellent question.
    The most important thing that we can do in order to 
mitigate the spread on public transportation actually is the 
same as, I would say, if you had asked me about what can we do 
to keep schools open? It is the same answer, which is that we 
need to keep a level of COVID-19 in the community to be as low 
as possible, because you can imagine, when you have communities 
in parts of the south where one in 100 people have COVID-19, if 
one in 100 people have it and don't know it, and they are 
getting on trains or they are going to schools or really any 
public place, that is a lot of potential people that they could 
be infecting.
    So we really have to do our part in order to keep the level 
of infection as low as possible throughout the country. At this 
point, we know exactly what that would mean. We know that this 
is a combination of physical distancing, wearing masks, also 
good sanitation practices and cleaning, but, ultimately, this 
is about keeping that level of infection down as low as 
possible.
    Two more things quickly. Another is testing. To piggyback 
on what Dr. Benjamin had said earlier, we absolutely need wide-
spread free testing available to where people are, and it needs 
to be rapid. It doesn't do any good when there is a test result 
that comes back in 5 to 7 days or even 10 days in some cases, 
because what is that patient supposed to do in the mean time? 
In that time, they are also spreading the disease to many 
others, and so that rapid testing is critical.
    The final point is surveillance. To your point about 
transportation as well, we need to know where it is that people 
are picking up illness, and we also have to have surveillance 
in the community so that we can identify some--a cluster of 
outbreaks or a cluster of infections before it becomes a large 
outbreak.
    Mr. King. Thank you, Doctor.
    I will address this question to anyone who wants to answer 
it: In my district in particular, we have several large 
Hispanic American, low-income communities, with both documented 
and undocumented people living in those communities. I think it 
was you, Dr. Wen, that mentioned about multigenerational, and 
that they are more inclined to have multi generations living in 
those communities.
    How is the best way to get testing into those communities, 
to alert the people to get the testing? Again, I am not 
advocating over the immigration rule, but, again, undocumented 
people are afraid to go to doctors. They are afraid to go for 
testing. Rightly or wrongly, how do we overcome that, and can 
we aggressively go into those communities more, not for our 
good, but for their good, find out, get them tested? I guess 
you can't force people to be tested, but really encourage it in 
those communities?
    Anyone who wants to answer?
    Dr. Benjamin. Sure. I--you know, a van. What you--all you 
need----
    Mr. King. Thank you, Doctor.
    Dr. Benjamin. Sir, I am sorry. This is Georges Benjamin, 
sir.
    All you need is a swab, a van, a testing, and a place to 
cool the sample down. So you can take mobile vans in those 
communities very effectively, park them on the corner, and ask 
people to come in, but you have got to obviously communicate 
with them so they don't feel threatened. Or go to schools. You 
have got lots of empty buildings in the community, and you can 
set a rapid testing clinic in.
    Mr. King. Another--I am sorry. Go ahead.
    Dr. Wen. If I may add, too, I completely agree with Dr. 
Benjamin. You need to go to where people are. Churches, 
community sites, public housing. Also, it is really critical to 
enlist trusted members, trusted messengers in the community. To 
the point that you raised, Congressman, that you need 
individuals who have the community trust. Public education 
needs to be a part of that, including public education about 
how everyone should receive health care. This is not a time to 
be asking about immigration status.
    Many people are going to be terrified to seek help because 
they think that they are going to be arrested by ICE and 
deported, and so it is really important to reassure them that 
this is not going to happen at this time, that this is about 
protecting not only them, but everybody else around them, too.
    Mr. King. My time is up. I yield back, Mr. Chairman.
    Thank you. I thank the witnesses.
    Mr. Payne. I would like to thank the gentleman from New 
York.
    The Chair will now recognize other Members for 
questioning--questions that they may wish to ask witnesses. As 
previously outlined, I will recognize Members in the order of 
seniority, alternating between Majority and Minority. Members 
are reminded to unmute themselves when recognized for 
questioning.
    The Chair now recognizes for 5 minutes the gentleman and 
the Chairman of the full committee, the gentleman from 
Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman, and I 
thank the witnesses.
    One of the things we have tried to work with, with FEMA is, 
in the issue of any National or natural disaster, they need to 
have a plan for the entire population, and that plan should 
include transportation, should include housing, health 
facilities, all of that.
    Most of the plans we have come in contact with, or have 
been presented, try to look at communities as one entity, and 
not--as Peter was talking about, certain people stay in one 
area, certain people sit in another.
    I guess what I am saying is we get cookie-cutter plans that 
many people assume will fit every situation, and what I have 
heard from the witnesses today is that you really have to have 
a greater understanding of the communities with which you are 
working, and your plans have to reflect it.
    The best example I can tell you, I am speaking from my 
Congressional office, and we had a testing site that was 5 
miles from my Congressional office, and we don't have public 
transportation. So, in the run of a day, they did 26 people 
because nobody could afford to get to the site. If they had 
just talked to somebody and said, ``Where is the best place to 
come to do a site testing,'' they would say, ``Well, you need 
to come where the people are.'' So, it is that comfort level 
sometimes that our emergency responders go to.
    So can you give Members of Congress--how do we work with 
FEMA and other personnel in this venue to get them to 
understand that you have to include the entire community in 
your planning, especially from an emergency preparedness 
standpoint, because otherwise, they will get overlooked? I will 
just throw that out to Dr. Benjamin, Dr. Wen, and then to Ms. 
Willis.
    Dr. Benjamin. I think--this is Georges Benjamin. We have to 
make sure that FEMA understands that real job is to build 
resilience and preparedness of communities, and that means that 
they can't do cookie cutters. They have to plan with 
communities, and not to communities. That means they have got 
to have community engagement. They have got to be part of the 
planning process throughout every aspect of it.
    We need to make sure that--Congress can require that the 
Governors and emergency planners show that they engaged 
communities as part of the planning process. Remember the HIV/
AIDS days, when we were challenged to get good HIV/AIDS plans 
in place? Well, Congress required planning communities be part 
of that planning process. So I think you can put that--link 
that to their funding in some way, to let--or some other 
mechanism to demonstrate that those communities are planned--
are part of the planning process, because, as you know, there 
is an enormous strength in communities that are not be being 
used.
    Mr. Thompson. Absolutely. Dr. Wen.
    Dr. Wen. If I may add very quickly that, right now, we 
don't even have that cookie-cutter approach. I mean, I agree we 
need to have a tailored approach, but, right now, we don't even 
have a National strategy, really, of any kind. We need a 
National strategy around testing. We need a National strategy 
around quarantine, isolation facilities, around procuring 
supplies, the Defense Production Act. We need to have that 
strategy in order for us to save lives.
    Mr. Thompson. Thank you.
    Ms. Willis.
    Ms. Willis. Thank you, sir.
    I would say that equity must become a core competency for 
emergency managers, certainly in the emergency management 
leadership. And I would also say that we need to begin tying 
funding to the investments of minority communities. And right 
now, that is not happening. We need to invest a majority of 
FEMA funding for preparedness, mitigation, and recovery in our 
most vulnerable communities rather than continuing to overfund 
communities that will bring in revenue, such as tourism areas. 
And so, that is something that has been a--that has been a 
problem and continues to be a problem. There is an 
underinvestment and divestment in communities of color.
    Thank you, sir.
    Mr. Thompson. Great. Thank you very much. I yield back.
    Mr. Payne. Thank you. I thank the gentleman from 
Mississippi.
    I now recognize the gentleman from Louisiana, Mr. Richmond, 
for 5 minutes.
    Or maybe not. OK. Well, it doesn't seem like he is here, so 
now we will go to the gentlelady from Illinois, Ms. Underwood, 
for 5 minutes.
    Ms. Underwood. Thank you, Mr. Chairman, and I am so 
grateful to our witnesses for appearing before the panel today. 
This certainly is a topic that touches close to home, as you 
know. So much of the disparities conversation related to COVID-
19 did begin with Illinois, as we were one of the first to 
release our data by race and ethnicity, and that has certainly 
jump-started our National conversation.
    In the last week, my State of Illinois surpassed 7,000 
lives lost from COVID-19. Hundreds of thousands more are out of 
work, and every single community has been impacted. But the 
harm done by this pandemic has not been inflicted evenly. 
Communities of color are experiencing disproportionate rates of 
illness, hospitalization, financial loss, and death.
    In Illinois, the cumulative rate of positive coronavirus 
tests for Hispanic residents is more than 5 times the rate for 
White residents. In one county in my northern Illinois 
district, the positive test rate for Hispanic residents has 
been nearly 8 times as high--8. Across the country, people of 
color, and particularly Black folks, are losing both their jobs 
and their lives at staggering rates.
    To tackle these inequities head-on, we need to make 
culturally-relevant investment in public health and economic 
opportunity, which is why I introduced, with my House and 
Senate colleagues, the Health Force and Resilience Force Act, 
which would fund public health departments to hire locally for 
testing and contact tracing.
    Dr. Benjamin, for Latinx communities and other underserved 
populations, why is it so important to have local residents 
supporting health departments with initiatives like contact 
tracing and information sharing?
    Dr. Benjamin. I don't speak Spanish. I don't speak Spanish. 
So it is language, it is trust, it is knowing where to go. When 
I was--I was the Washington, DC health officer, and I have got 
to tell you that we were successful in many of our efforts 
there to reduce a whole range of infectious diseases, because 
they had outreach workers that knew the community; knew who to 
go to; and, when people didn't want to do something, were able 
to convince them to follow medical advice.
    That is essential in communities of color, and 
particularly, in communities where they are concerned about 
immigration, where English isn't the first language, and, 
frankly, right now, in these last few years, we have 
stigmatized.
    Ms. Underwood. Yes. So we have invested billions of dollars 
in the search for a vaccine, but actually developing a safe and 
effective vaccine is only the first step. We will then need to 
prepare to rapidly deploy it across the country, and 
unfortunately, we know that Black and Latinx Americans have 
lower immunization rates than their White counterparts.
    Dr. Benjamin, can you describe the importance of community-
specific efforts to increase vaccination rates in Black and 
Latinx communities for recommended immunizations like measles 
and smallpox and flu vaccines? Also, what does the evidence 
from the deployment of those vaccines tell us about how we need 
to prepare to deploy an eventual COVID-19 vaccine to ensure 
strong vaccination rates among communities of color?
    Dr. Benjamin. Well, we should start recognizing that there 
is a disparity in vaccine uptake in communities of color. In 
other words, communities of color don't get vaccinated as 
frequently as Whites in this country. Second, we should 
recognize there is an enormous amount of mistrust that 
currently exists. That is coupled with, primarily, the anti-
vaccine community and others, though, who are sending a lot of 
disinformation.
    Look, we have already got people in social media space and 
passing out flyers telling community of color don't get 
vaccinated, it will make you sterile, it will give you AIDS, it 
will give you the disease, it will kill you. So there are 
already a lot of disinformation out there, and we need a 
National effort to do that.
    But, more importantly, we need a National plan. The Federal 
Government needs to step up to the plate and put together a 
plan, just like we did with H1N1, to figure out how we are 
going to deploy this vaccine. We have got lots of mechanisms to 
do that, but we have no plan.
    Ms. Underwood. Well, I am so glad you said that, because, 
last month, I introduced the Protecting Against Public Safety 
Disinformation Act. This bill would help public health 
officials mitigate the impact of false information that can 
undermine efforts to keep our communities safe during this 
pandemic and beyond.
    Dr. Benjamin, in what ways could the spread of 
disinformation worsen disparities, and the impact of COVID-19, 
particularly with respect to vaccines, but also wearing masks?
    Dr. Benjamin. Well, again, there is a group out there who 
is actively working to confuse us all around vaccines, around 
masks. Look, there are flyers. I saw some flyers that were 
being passed out in New Jersey which had the CDC and the World 
Health Organization logo on them. They were obviously 
misinformation, but they are flyers that basically said, you 
know, If you are infected, go to a synagogue. If you are 
infected, go to a low-income community. If you are infected, 
ride public transportation. In other words, they are trying to 
spread the virus.
    So they are giving misinformation to hurt people, and so I 
think we have got to push back against that kind of effort as 
aggressively as we can.
    Ms. Underwood. In the same way that you all discussed, 
targeting the strategies to mitigate spread, like testing and 
treatment in the communities that are most--most impacted, we 
also need to target those same types of campaigns to spread 
accurate information and empower those public health officials 
to do the same. In May, the House----
    Dr. Benjamin. Absolutely.
    Ms. Underwood. Thank you. In May, the House passed the 
HEROES Act, which included nearly $7.5 billion in direct 
funding for public health departments, in addition to $500 
billion in relief for States, and $375 billion for local 
government. Unfortunately, the Senate has yet to act to pass 
this bill.
    We know that there are significant public health 
consequences to continued delays in passing the HEROES Act, and 
so we are calling on our colleagues in the Senate to rapidly 
take up this legislation, and empower our State and local 
public health departments to do this much-needed work.
    With that, Mr. Chairman, I yield back. Thank you to our 
witnesses.
    Mr. Payne. I would like to thank the gentlelady from 
Illinois for her questions. Always poignant. Please make sure 
my office has all of your pieces of legislation so that I can 
sign off.
    Ms. Underwood. Yes, Mr. Chairman. Thank you.
    Mr. Payne. Next, I believe we will recognize the gentlelady 
from Texas, Ms. Jackson Lee, for 5 minutes.
    I thought she was on. Staff, is she available?
    Staff. Not at the moment, sir. It is just you and Ms. 
Underwood.
    Ms. Underwood. Well, Mr. Payne, if you would yield a couple 
more minutes, I do have a couple more questions for our 
witnesses.
    Mr. Payne. I will yield.
    Ms. Underwood. Thank you so much, sir.
    My next question is for Dr. Wen. In June, the CDC reported 
that pregnant woman might be at increased risk for severe 
COVID-19 illness, and the risks appear to be even higher for 
Black and Hispanic pregnant women.
    Dr. Wen, as Congress develops another COVID-19 relief 
package, which policies should be considered to protect 
pregnant and postpartum women during this pandemic?
    Dr. Wen. Thank you for that excellent question, and I know 
that you and I have worked closely on issues of maternal 
mortality. I thank you for your leadership on these really 
important factors.
    So there is--so I think there are two separate but related 
issues. One is about COVID and disparities, and then the other 
is about maternal mortality, and now they are intersecting in 
this way because of the increased likelihood of severe effects 
among pregnant women during COVID. So I think we have to take 
them separately.
    For COVID-19, I do think that all the recommendations that 
we have made thus far still stand. In this case, I would just 
continue to emphasize the importance of a National strategy, 
because right now, we have seen what happens when we have this 
piecemeal approach across the country, when we have, 
unfortunately, elected officials who are not following the 
advice of public health experts, and, in fact, as Dr. Benjamin 
said, are feeding into misinformation.
    So everything that we can do, that all of you can be doing 
to ensure that there is a National strategy to the best of your 
ability would be extremely helpful, and to spread that 
information, too, or to counter the misinformation that is also 
rampant.
    Then I would say, when it comes to maternal mortality, we 
need to be not only looking at what happens during pregnancy, 
which is really critical, but also, how can we be improving 
health for women, and, in particular, for Black women and women 
of color throughout their lives? I think that everything that 
you have done, Congresswoman Underwood, to support and improve 
maternal mortality would also, therefore, not only address the 
maternal mortality issue, but specifically, also improve 
outcomes during COVID-19 as well.
    Ms. Underwood. Well, thank you for your leadership on this 
issue and all other matters of public health.
    I want to return back to Dr. Benjamin. I started to raise 
the Heroes Act, and the significant financial investment that 
would be made for States and local governments. With your 
background in leading the American Public Health Association, 
can you describe the potential public health consequences of 
the Senate's inaction on this emergency funding for States, 
localities, and public health departments?
    Dr. Benjamin. You know, here is the challenge we have. You 
know, we have got 3 million people with this disease, and even 
though, you know, we don't have as many deaths today because of 
the young people who are getting it who may not be as 
susceptible to dying, death is a lagging indicator, as you 
know. We do not have a public health system that can adequately 
trace and do the contact tracing.
    This is going to get worse before it gets better--I can 
assure you of that--as we return to work, and so, we are going 
to have to build that system. We need to do that as quickly as 
possible. Without those funds, frankly, we are up the creek.
    I was just talking yesterday to some folks about going back 
to school. We don't go back to school unless we get our hands 
around this disease process, as Dr. Wen pointed out.
    Ms. Underwood. Yes. So the thing I want to make sure that 
the committee and the American people understand is for 
decades, our State and local public health systems have been 
systematically seeing their funding sources reduced. They have 
been working at the very top of their capacity across this 
country.
    That was during a time of health and well-being largely, 
right? We were not in a pandemic environment. So these types of 
resource are not going toward these State and local health 
departments as sort of excess, right. They are to fill critical 
functions to protect the communities that they serve.
    So, when we talk about bills like the health force, the 
resilience force, and hiring community members, training them 
and giving them a sustainable skill set to further pour into 
those communities that they come from, it only serves to build 
the capacity of those local institutions. Would you care to 
comment, Dr. Benjamin?
    Dr. Benjamin. Oh, absolutely. When I was--you know, in my 
health department when the anthrax letters hit our Nation, my 
surge capacity came from my HIV/AIDS programs, my chronic 
disease programs, et cetera. I pulled epidemiologist and 
outreach workers through all of our programs, and then we had 
to deal with--continue to deal with HIV and STDs.
    As Dr. Wen pointed out, we still have people dying. Other 
than COVID growing very quickly, the leading cause of death is 
still cardiovascular disease and cancer. Those did not go away, 
and we still have to address them. It is still much cheaper for 
our Nation to prevent these diseases than to treat them when 
they occur.
    Ms. Underwood. That is right. Thank you again, and I yield 
back.
    Mr. Payne. Thank you.
    The Chair now recognizes--and can see her--the gentlelady 
from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much for 
your kindness. Thank you to the Members. We are all doing 
double-duty.
    Let me also say, Mr. Chairman, I am delighted with your 
leadership, Chairman Thompson's leadership, but I must, again, 
publicly say congratulations on the recent success that we had 
that we will be able to see you again in the year and months to 
come. So thank you so very much.
    Mr. Thompson. Thank you.
    Ms. Jackson Lee. All the witnesses, I have encountered you 
in the past, and the Members that are on. So let me just be 
very clear, I am now in the COVID epicenter. I am in what would 
be politely called Hades--not Haiti--but in an experience that 
we never thought we would be in.
    We opened up on May 1. The CDC guidelines were not adhered 
to, which is a consistent decline in COVID-19 cases. I get 
personal calls from constituents of Members who have died at 
home, or who died with, in quotes, unknown causes or something 
called pneumonia untested.
    The Federal Government is pulling out from testing. We have 
only tested 2.5 million in a State of close to 30 million 
persons. I am in the most populous county, the most populous 
city of the State of Texas. I am in the 18th Congressional 
District, which is the heart of these issues.
    So let me--I did give an opening, and I am going to ask for 
quick answers so that I can ask all of you. Let me say to the 
witnesses that I am convinced of your position, Dr. Benjamin, 
on building up the public health infrastructure. I can assure 
you my public health officials say that.
    But let me just ask you, when you said get your hands 
around it, if you find a pandemic of this nature in a 
community, would it not add to the process of getting around 
COVID-19, or getting your hands around COVID-19 for a stay-at-
home--a reissuance of a stay-at-home order that then allows the 
medical professionals and others to understand where the 
hotspots are?
    Now we have got 100 firefighters in quarantine because of 
their exposure. We are in restaurants. We are in various 
places. Let me just yield to you, what about a stay-at-home 
order--and you can answer it generically. I just use some 
facts.
    Dr. Wen, I would like you to be able to focus on the fact 
that Latinx population, the African American population are the 
higher numbers, but we have Latinx persons who work every day, 
children who go to school, but are undocumented scared with the 
posture of ICE. What should be said?
    I have asked for ICE to stand down. I have asked for the 
Federal Government--I have asked the White House task force to 
ask ICE to stand down. How dangerous is that when we have 
communities that are fearful of their accessing health care, 
and what should we do?
    Dr. Daniels--excuse me, I am so sorry. Dr. Benjamin, would 
you answer that question about the viability of stay-at-home 
order?
    Dr. Benjamin. Yes. Yes. Yes. Texas is in big trouble, and 
you folks ought to have a much tighter stay-at-home order and 
mandatory mask wearing any time anyone has to go out. Look, it 
works. It absolutely works. Every Nation in the world has 
demonstrated that it works. It worked in 1918. It is going to 
work again in 2020.
    But folks are playing too much politics with this. We 
cannot get the economy back until we get our hands around it. 
You can't get your hands around it until you stop the 
transmission of this disease.
    You get this disease from other people. That means we have 
to stay away from each other as much as we can in an organized 
way, and then as we return to trying to engage one another, we 
need to do so in a cautious, measured, controlled manner with 
facial coverings, hand washing, and physical distancing as--you 
know, because that is what we have right now.
    Ms. Jackson Lee. Thank you, Doctor.
    Dr. Wen, would you comment on that, and I guess you might 
add, I mentioned the testing point, the Federal Government is 
pulling out of testing here, transferring it to local vendors. 
I certainly welcome that. But we are not at that point. How 
important is testing in addition to the question I gave you? 
Thank you.
    Dr. Wen. Testing is----
    Ms. Jackson Lee. If the witness wants to answer that--I am 
sorry--wants to join in, Ms. Willis, please, likewise.
    Dr. Wen, thank you for your services.
    Dr. Wen. Congresswoman, thank you. Testing is absolutely 
essential. If you don't know who has the infection, how can you 
stop the spread, especially given that we know about 
asymptomatic transmission. A new study showed that up to 50 
percent or even more of all the spread occurs with people who 
don't even know that they have it.
    So we absolutely need testing. States and local officials 
cannot do this alone. There is no way for them to ramp up 
testing without Federal support, and that is why FEMA's support 
in this and leadership in this is going to be so important.
    To the question that you raised, Congresswoman, about 
Latinx and other immigrant populations, look, we cannot have 
policies that will scare people. We cannot have individuals who 
are too terrified to seek care because they think that they or 
their loved ones are going to be deported.
    So you absolutely cannot have ICE have anything to do with 
testing. They cannot have anything to do with having medical 
records or being in hospital facilities or any health care 
facilities.
    We also know that contact tracing, in addition to testing, 
is critical to reining in the infection. So when somebody calls 
an individual, and they are asking about their close contacts, 
they must be reassured that that information will never go to 
immigration officials of any kind.
    If we do not have those policies in place, then we are not 
going to be able to control the infection. Of course, this is a 
huge problem for exacerbating existing disparities, but it is 
also a problem for everyone in the country if there are some 
people who are too scared in order to receive care.
    Ms. Jackson Lee. Mr. Chairman, if you would indulge me, I 
don't know if Ms. Willis wanted to answer the question.
    Mr. Payne. Your time is expired, but I will allow you 
another 3 minutes.
    Ms. Jackson Lee. Oh, thank you, Mr. Chairman.
    Ms. Willis, just before you answer, I would like to throw 
back after you answer, Dr. Benjamin and Dr. Wen, you know, we 
are in hurricane territory. I don't want to wish it on us, but 
we don't know what to expect in the coming months, August, 
September.
    I would like you to emphasize how important it would be--I 
think, Dr. Wen, in your testimony, you talked about the 
different set-aside sites that might be for people who are 
asymptomatic, or maybe who have certain conditions of COVID-19 
that don't warrant hospitalization, but we are going to be in 
the middle of a hurricane. How do we deal with handling 
hurricane victims that need to be placed somewhere and take 
care of COVID-19?
    But I am going to go to Ms. Willis first, and if you all 
would answer that after that with my 3 minutes. Thank you, Ms. 
Willis, if you wanted to answer.
    Ms. Willis. Yes, ma'am. Very quickly, I would just say that 
when we focus on community-center responses, we are more 
flexible and we have a desire to listen. So as emergency 
managers, we must incorporate those factors in dealing with 
communities, especially those who might have a fear of 
deportation, or a general distrust of Government. We must be 
sensitive and culturally competent. Thank you, ma'am.
    Ms. Jackson Lee. Thank you for the answer.
    Dr. Daniels--Benjamin. Daniels, my bad. Dr. Benjamin.
    Dr. Benjamin. Yes. Let me just add that, obviously, 
shelters are clearly not ideal places when we have to ask 
people to shelter in place. Of course, we saw this with both 
Katrina and Rita.
    We have got to rethink and reimagine how we are going to 
protect people should we get hit with another hurricane or 
tornado or anything that we have to evacuate people and move 
them, even the coastal storms that we have.
    We have got to figure out how we are going to make sure 
they have access to hand washing, how they are going to have 
access to potable water. You know, how they are just going to 
handle waste is going to be a big issue in light of this 
outbreak.
    We need to do that planning--we should have done it months 
ago, but if we don't do it now with a particular focus on 
communities that are most vulnerable, we are going to see huge 
outbreaks of disease.
    Trying to manage just a flu outbreak or any other 
infectious virus in a conjugate setting is an absolute 
nightmare for managers. But we know the science. We know how to 
not make that happen. I don't think we are doing that. I don't 
think we are planning for it.
    Ms. Jackson Lee. Thank you.
    I have a few seconds, Dr. Wen.
    Thank you, Dr. Benjamin.
    Dr. Wen. We keep on reacting to what has happened instead 
of anticipating what is ahead. In this case, we know exactly 
what is ahead, and we know exactly what we need to do to 
control COVID-19 in the process. So, I think that is something 
that the Trump administration, with Congress' urging, can 
really do. You know what is going to be coming our way, and now 
it is the time to prepare.
    Ms. Jackson Lee. Thank you so very much.
    Mr. Chairman, thank you for indulging.
    I know that--just to put on the record--the most important 
part of Congress' work is to pass the Heroes Act so that we can 
get resources out for PPEs, testing, hospitals, and others, and 
we really need to get past the obstruction and the blocking by 
the U.S. Senate so that we can pass that legislation, get it 
signed for the people of the United States who need it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Payne. Absolutely. You know, our thoughts and prayers 
are with you in Houston. We know that you are really going 
through it right now. You know, we had it in Jersey, so I know 
how horrific it can be. So hang in there and just hope we can 
get people to stay safe. Thank you.
    Ms. Jackson Lee. Thank you. Thank you for your kind words. 
Thank you.
    Mr. Payne. Absolutely.
    I have another question or two that I want to--if I may. 
For all of you, it is in reference to school openings. The CDC 
has released guidance for United States K-12 schools and 
children's programs to plan and prepare and respond to COVID-
19.
    On Tuesday, the President threatened to withhold funds from 
schools that did not reopen in the fall, and tweeted on 
Wednesday that he disagreed with the CDC's guidance, calling it 
very tough and expensive.
    The White House is reportedly preparing its own school 
reopening guidance, and the CDC was reportedly considering 
modification to its own guidance for schools. The 
administration's rush to reopen schools without following all 
of the necessary precautions is troubling, not just to policy 
makers, but also to parents as well.
    If schools do not reopen in a responsible way, what are the 
possible impacts on communities disproportionately affected by 
the pandemic? We will start with Ms. Willis.
    Ms. Willis. Thank you, sir. That is an excellent question. 
This entire policy that the President is enforcing is actually, 
to me, very significantly traumatizing because I am a parent.
    Mr. Payne. Right.
    Ms. Willis. When I consider that my son will be exposed to 
COVID-19 because I am a single mother, because I do have to 
work, I am absolutely horrified. I know that so many other 
Americans are in the same position, where you have to work, and 
so now, your kids must be sacrificed.
    To me, it is similar to the time when the President forced 
the meatpacking industry back to work knowing that they were 
going into dangerous circumstances, and there was nothing that 
could be done because they had to work.
    It is similar to slavery, when we think about the essential 
workers and we think about what occurred in 1850 with the 
yellow fever. This concept of sacrificing those who are most 
vulnerable and those who do not have a voice, it is absolutely 
astonishing, and it is an indictment against America.
    Thank you, sir.
    Mr. Payne. Dr. Benjamin.
    Dr. Benjamin. Yes. Let me just add, we should never cut 
corners. Let's be real clear, I have looked at the CDC 
guidance. It is not too tough. It is a good baseline, and they 
should not weaken that guidance at all. That is the first 
thing.
    Second, you know, the issue around cost, you know, it is 
probably the least affordable of our options because if we have 
a bunch of kids that get sick, even if they don't get real 
sick, they can't go to school. Their parents can't go to work.
    So all you have to do is have an outbreak in a second-grade 
class, all those kids are out of school, their teachers are out 
of school, their parents are out of work. So where is the 
savings? Their parent may get really sick, and so then there is 
a huge health, both from a humanistic perspective as well as a 
cost perspective for their medical care.
    So I don't get the economic analysis. By the way, he is not 
a doctor. So, quite frankly, we should listen to the 
professionals that know what they are talking about and not 
someone whose motives that I question.
    I am not making a political statement. I am a physician, 
and I believe that doctors and health care providers know what 
we ought to do, and that we ought to listen to us very well. I 
don't tell lawyers what to do. I don't tell teachers what to 
do.
    Mr. Payne. Thank you.
    Dr. Wen.
    Dr. Wen. I agree completely with my colleagues. I am also 
the mother of two young kids. I am the daughter of a 
schoolteacher in Los Angeles who has passed away, but she was a 
long-time school teacher. I just want to mention this in this 
context. It is about students. It is also about teachers and 
staff, too.
    My mother had breast cancer. She was on chemotherapy for 8 
years while she was teaching full-time. I think teachers want 
to get back to in-person instruction, but there are many 
teachers who also have chronic medical illnesses that we have 
to watch out for as well.
    In this case, you mentioned, Chairman, about the CDC 
guidelines, if we are unable to meet the guidelines for safe 
reopening, the answer isn't let's change the guidelines. The 
answer is, what is the hard work that we are going to be doing 
in order to safely reopen?
    I agree with Dr. Benjamin. We have already seen what 
happens when we cut corners. When we cut corners, we get rises, 
surges, explosive spread of infections. We should have already 
learned our lesson. When we muzzle scientists, when we do not 
listen to public health, people die.
    To Ms. Willis' point, the people who will suffer the most 
are those for whom it is not a choice to go to work. Who are 
they? It is African Americans, Latinx populations, Native 
Americans, people of color, the ones who bear the brunt of the 
greatest health disparities and who, unfortunately, are 
suffering the greatest health disparities now, too.
    Mr. Payne. Thank you.
    One last question. Reports continue to suggest that the 
Trump administration and FEMA are not adequately allocating 
medical resources, testing, and other supplies to communities 
disproportionately impacted by the virus. What are some of the 
ways FEMA can improve its efforts to ensure communities 
disproportionately impacted by the pandemic are receiving all 
the necessary medical resources?
    Let me just add to that, I have been on this committee 
since coming to Congress in 2012, and I have watched FEMA move 
through different administrations. A lot of FEMA's issue is who 
is in the White House right now, and their hands being tied.
    So though FEMA has some issues they need to overcome 
internally, a lot of their problem is with the person in the 
White House and the restraints that he is putting on different 
entities of the Federal Government.
    With that, what do you think FEMA is not adequately 
allocating in those areas, Ms. Willis?
    Ms. Willis. Thank you, sir. That is an excellent question 
and an accurate observation. Politics influences emergency 
management way too much. The response from FEMA has been 
greatly influenced by the President, by the administration, 
and, in general, by, you know, a lack of science and informed 
decision making. Unfortunately, politics drives a lot of what 
emergency management will do in terms of response measures, 
including recovery and relief measures.
    Unfortunately, within emergency management, equity is not a 
priority. It is not a core function of FEMA's mission. So the 
focus on vulnerable groups and using social determinants of 
health has never been a priority for FEMA.
    That needs to change. We need to begin focusing on equity 
and focusing on those groups who are most vulnerable. Once we 
do that, everyone will benefit. Studies have shown everyone 
benefits when we focused on those who are most vulnerable.
    Thank you, sir.
    Mr. Payne. Thank you.
    Dr. Benjamin.
    Dr. Benjamin. Yes. You know, I am always not in the room 
when they are making those decisions. What I do know for one 
thing is that FEMA really has to beef up its situational 
awareness. It doesn't work very well. They really have to 
improve their situational awareness and their supply chain 
management, and their ability to make decisions very quickly.
    You know, when you have a really good emergency medicine 
function, it works extraordinarily well. But when you have one 
that is politicized; when you have one that is not simply doing 
things because it is in the right mode to help the public; when 
you think your job at FEMA is only to coordinate activities and 
not to understand that they are really an emergency response 
health agency, then they are going to fail.
    I used to run the EMS system for the District of Columbia 
when it was working. The good news is it is working now. You 
know, we believe that it was important to help people, to save 
lives. If FEMA takes that as their benchmark, then I think they 
will do better in the future.
    Mr. Payne. Thank you.
    Dr. Wen.
    Dr. Wen. Thank you. I would only add to everything my 
colleagues said that we desperately need this National 
strategy. One thing that we haven't talked about as much today 
is about PPE and the supplies that I just cannot believe--we 
went through this once in March and April.
    We saw that my colleagues, who are doctors and nurses 
around the country, were asking on Facebook and Twitter about 
who had masks that maybe they used for some home improvement 
project that they can be donating. Are there garbage bags and 
rain ponchos that they could be cutting holes out of in order 
to use as gowns?
    I mean, it is just unconscionable that we are out of those 
supplies again, that we are making medical professionals go on 
the front lines with no armor, with nothing to protect 
themselves and their families.
    Also, as I said in my testimony, we also desperately need 
those PPE for other essential workers as well. Now that we know 
about asymptomatic transmission, how are we still having people 
sitting shoulder-to-shoulder to one another in closed spaces 
without the protection that they desperately need?
    So, that is something that FEMA can absolutely do and 
coordinate. Again, if we do not do that, then we also, again, 
know who are those who are going to be the most impacted.
    Mr. Payne. Thank you.
    I want to thank all the witnesses today for their wonderful 
testimony. It really helps us move forward in trying to combat 
these issues around disproportionate disparities in communities 
of color. As you said, if we do well in those communities, 
everyone benefits.
    So, we will continue to do what we can, and we will call on 
you as we need to for your expertise. But I want to thank you 
for being here today. The three of you have been tremendous, 
tremendous witnesses today, and I appreciate all your 
testimony.
    I ask unanimous consent to enter into the record a 
statement from Dr. Joycelyn Elders. Without objection.
    [The information follows:]
  Statement of Joycelyn Elders, MD, 15th U.S. Surgeon General, and Co-
             Chair, African American Health Alliance (AAHA)
    Good afternoon Chairman Payne, Ranking Member King, and Members of 
the House Subcommittee on Emergency Preparedness, Response, & Recovery. 
I am Dr. Joycelyn Elders the 15th Surgeon General of the United States. 
I am also co-chair of the African American Health Alliance a nonprofit 
organization working to help eliminate racial and ethnic health 
disparities and the social determinants thereof. We thank you for 
convening this special hearing on Pandemic Response: Confronting the 
Unequal Impacts of COVID-19 along with the many other coronavirus 
hearings held and to be held by this subcommittee and the full 
committee.
    COVID-19 remains a major matter of National and world-wide 
security, and of public health in America and world-wide. The Pandemic 
continues to take its deadly toll, especially across the Black 
community and other vulnerable populations. During COVID-19, as the 
United States seeks to protect National security, send workers back to 
work and children back to school, among the major missing factors to 
date remains: Safe and effective treatments and vaccines, and an 
overall safe, effective, and sustained public health response that 
includes on-going robust reliable testing, contact tracing, care and 
treatment, and isolating. Confronting and addressing the unequal 
impacts of the coronavirus must be a National priority and it requires 
a National plan of action.
    In a whirlwind of disasters, Americans remain barraged by a world-
wide pandemic of a new virus and medical unpreparedness; shortages of 
PPE, hospital space, and medical personnel; Government unpreparedness, 
economic recession, and unemployment; huge numbers of hungry and 
homeless people; police brutality and systemic racism. We must remember 
that this also impacts members of and families of our Nation's 
military.
    Our Nation's underbelly has been exposed in COVID-19, brutal 
policing, racism, income insecurity, and National security. People are 
taking to the world's streets to demand peace with justice and an end 
of racism and all its consequences. The world has awakened to discover 
that huge numbers of people are dissatisfied with disparities that are 
obvious in all areas of economics, social justice, education, housing, 
medicine, National security, and more. Black lives do matter.
    It is crystal clear that the events of the past few weeks and 
months have revealed the awful truth about the impact made by racial, 
health, and economic disparities in our country, its consequences and 
implications. Standing there naked in view of the world, we are 
humbled. However, being humble is not enough. We can see clearly how 
unfavorably we compare to other countries in the world, and they can 
see it, too. The people of the United States have not fared as well as 
other developed countries. Our Nation's responses to the coronavirus 
pandemic including its disease rates are higher and our ability to 
mobilize resources, identify the presence of the virus, isolate and 
support people while they do, is miserably deficient.
    Our Nation's infection rates and death numbers are higher than many 
other industrialized countries. While our Nation offers hope of a 
vaccine that remains out there on the horizon the immediate need is for 
safe, effective, life-saving treatments that are accessible to all that 
need it. This must be coupled with an effective ``Test-Trace-Treat-
Isolate-Repeat'' package. We must not reach a point of military vs. 
non-military. People across the Nation and around the world are asking 
how, when, where, why, and what went wrong in United States, that 
America has been bent so low? Especially with regard to coronavirus, it 
seems ridiculous, since America has the best doctors, nurses, medical 
teams, and research laboratories in the world. However, being the best 
professionals doesn't cover all our bases in providing the best health 
care for all our people. Why, because, all our people do not have 
access to this remarkable world of medicine that we have built.
    Mr. Chairman, Ranking Member, and Members of the subcommittee 
surely you can understand my deep concerns regarding access to safe, 
effective, and accessible treatments and vaccines to the Black 
community, other vulnerable communities, and to our military. Even 
before COVID-19, our Nation's delivery system, for all its wonderful 
medical know-how, was and remains broken. And, doctors scarcely have a 
word in the way health is delivered to all our people. While doctors 
provide medical expertise, the organizational power is given over to 
others in the corporate and political world.
    At least for 30 years, we have been ``working'' on eliminating 
health care disparities. When Healthy People 2000 came out in 1990, 
eliminating Disparities in Health Care was an objective. Then, it was 
an objective in Healthy People 2010; then, it was an objective in 
Healthy People 2020. In these 30 years, we have not made much of a dent 
in the actual disparities. The Affordable Care Act is helping and it 
must be protected and strengthened. Additionally, we must address the 
social determinants of health. Clearly, a person is only as healthy as 
the least healthy person. This is true for the military as well.
    Health care must be extended to everyone for public health to be 
good. Without it, there are added risks to protecting our Nation as 
well as opening America including its schools. A comprehensive response 
requires the appropriate tools, resources, medical and mental health 
teams, PPE, safe and effective coronavirus treatments as well as access 
to safe, effective, and affordable medications for pre-existing health 
conditions and more. The unintended negative consequences are real and 
must not be ignored. We must ``test-trace-treat-isolate-repeat''.
    The compounding coronavirus pandemic, the economic collapse, police 
brutality and systemic racism, individually and collectively take their 
toll on all fronts. Again, while these epidemics are truly humbling, 
being humble is not a solution. As a Nation, we are at a dangerous low 
point in society and humanity. Know that when there is a vacuum, 
someone and/or something will fill it good or bad. We are all in this 
together: Doctors, nurses, scientists, clergy, elected officials, 
front-line workers, the public and private sectors, the military and we 
the people. Equity is important to the well-being of every man, woman, 
and child and to our Nation on every front.
    Confronting the unequal impacts of COVID-19 must be a National 
priority. Disparities must not only be addressed; they must be 
eliminated. COVID-19, racism, excessive policing, and the economic 
disaster, continue to show us that we can no longer just re-arrange the 
deck chairs on the Titanic. We must conquer coronavirus, put an end to 
racism, reform our policing and health care system, and build a life-
sustaining economy for all. Among these, that includes developing a 
health care system that provides health care to all and eliminates 
disparities in health and health care.
    Now, our Nation only has a sick-care system for all, with a health 
care system for some. The United States cannot stop at only health care 
access and delivery; we must also address all the disparities in the 
social determinants of health. They too adversely impact those serving 
in our Nation's military and their families. Addressing social 
determinants are the backbone on which to develop the most effective 
response. America has not wanted to spend the money investing in health 
care for all and public health. Now, America is reaping the negative 
consequences of her reluctance to invest in people. The United States 
will continue paying until our Nation invests in eliminating racial and 
ethnic disparities.
    Confronting the unequal impacts COVID-19 and the compounding 
intersecting adverse outcomes come as no surprise. Either we will 
invest in people now or pay later. The subcommittee will recall the 
findings of the 2002 Institute of Medicine Report ``Unequal Treatment'' 
that urged the Nation to confront racial and ethnic disparities in 
health and health care. As the 15th U.S. Surgeon General, co-chair of 
and along with the African American Health Alliance Board, we strongly 
believe that if the recommendations of that IOM report had been 
implemented the burden of coronavirus and other health disparities 
would not be so dire. Nevertheless, we are once again at the urgency of 
now and must effectively deal with this deadly novel coronavirus and 
confront its unequal impact head-on.
    While Coronavirus has been declared a National Emergency, the void 
is clear racial and ethnic health disparities elimination and racism 
elimination have not. Surely, the deadly extent of coronavirus in the 
Black community and the impact of the virus across communities of color 
demands that racial and ethnic health disparities elimination and 
racism elimination must be declared National emergencies, and 
effectively addressed as such. To that end, from lessons learned to 
protecting homeland security, to the opening of places of work, 
schools, entertainment, and more, the African American Health Alliance 
submits recommendations via my testimony to this distinguished 
subcommittee to help our Nation better address the COVID-19 pandemic. 
These recommendations will help our Nation and communities better 
address the unequal impact of COVID-19.
    It is against this collective backdrop that the African American 
Health Alliance urges implementation of the recommendations coupled 
with the accelerated development of safe, effective, accessible, and 
affordable to all COVID-19 treatments and vaccines, and the required 
wrap around services people need to benefit from them.
               recommendations details and justification
    Coronavirus requires a National comprehensive response. Black lives 
do matter.
    Declare Racism a National Emergency.--Declaration to provide for 
inclusion of racism elimination and prevention provisions in all 
policies, practices, and programs. This action systematically takes 
into account the adverse consequences of racism in policing and all 
social determinants impacting the quality of life. For all, the 
declaration limits and helps to prevent the harmful effects of racism 
across the lifespan. Black lives do matter.
    The elimination and prevention of racism is vital to helping to 
ensure that all persons achieve their fullest potential, freedom, and 
justice. Conduct racism impact assessments, elimination efforts 
including engaging State and local and community workgroups for the 
purpose of informing decisions that promote elimination thereof as well 
as those that prevent elimination. Racism's consequences and protests 
Nation-wide and world-wide against racism support this declaration. 
[Within, that is AAHA's recommendation for the declaration of 
``Racism'' and the ``Elimination of Racial and Ethnic Health 
Disparities'' National emergencies.'']
            disease detection, manage, control, and monitor
    Coronavirus Testing: Provide Testing, Contact Tracing, Isolate, 
Treat, Social Distance, Repeat.--Remove barriers and provide 
accessible, robust rapid accurate and timely testing with accurate 
rapid results: Priority testing must be targeted especially for those 
African Americans with chronic pre-existing health conditions that 
place them at increased risk for coronavirus deaths and disease. Lack 
of testing remains a major missed opportunity to help control the 
spread and reduce coronavirus cases and deaths, and for making informed 
decisions about re-opening. This requires testing of not just those 
with symptoms but also those without.
    Provide both COVID-19 mobile testing labs along with mobile health 
units. This companion effort provides for continuity of care for pre-
existing chronic health conditions. Together, they are absolutely 
essential especially in high-risk communities, pre-existing health 
condition, hot spot breakout areas, crowded public housing, and front-
line jobs/workplaces. Additionally, re-energize the DHHS health in 
public housing program. DPA: Robust test production, testing, contact 
tracing, and isolation are essential to help control this deadly 
pandemic and treat and manage pre-existing health conditions.
    Coronavirus test to also include the serology test. Negatives must 
continue precautions including social distancing and isolation. 
Effective contact tracing requires that tracers also include African 
Americans and others from communities of color. Coronavirus testing 
coupled with contact tracing, monitoring, identification, isolation, 
diagnosis, and immediate coronavirus care, treatment and management 
coupled with on-going testing and treatment for pre-existing health 
conditions is a must solution.
    State and local health departments must be supported also to help 
do the contact tracing and follow-up that is necessary to be effective. 
Directly fund each State and territory to do contact tracing and robust 
testing. The CDC's respiratory surveillance system is not adequate to 
the task. States must demonstrate a system where data is collected from 
all populations indicating the ability to provide rapid diagnostic 
services to all residents and on-going serologic monitoring the State's 
population including unserved and underserved areas (MUAs).
    Responsible opening, care, treatment, and control are dependent 
upon test-trace-treat-isolate. Surely, children must be tested as well 
as those that teach and provide them care. Do not open schools without 
testing. Without it, the approach is reckless. National robust testing 
requires releasing the full powers of the Defense Procurement Act; that 
act exists to help save lives; do it now.
    Engage/Command/Control/Preparedness/Emergency Response/Resilience 
Expert.--We strongly urge you to work with retired General Russell 
Honore to develop a comprehensive Coronavirus Resilience National 
Strategy with emphasis on public health, the supply chain, economic 
security, vulnerable populations, cybersecurity, broad band and more 
including a build-back-better approach. General Honore has tremendous 
expertise that is needed to help improve the coronavirus response.
             extent of need: pre-existing health conditions
    Pre-existing Health Conditions: Provide Health Care Access for Care 
and Treatment: Expand and ensure access to care and treatment.--Include 
Medicaid expansion; allow Medicare enrollment at age 45, allow 
``special open ACA enrollment season now'' and permit young adults to 
remain on their parents' health care plan to age 30. In addition, 
expand existing community health centers and continue to increase the 
number of new centers especially in unserved and underserved 
communities. There must also be mobile community health satellite 
centers with full or near-full array of services. Coronavirus and 
chronic health conditions together require immediate, short- and long-
term care, treatment, and follow-up.
    Continuity of care is vital. Expansions in access to care and 
treatment with wrap-around services is necessary to respond to both the 
coronavirus medical, mental health conditions, and to chronic pre-
existing health conditions that the virus further complicates. Overall, 
make sure everyone has some form of affordable health care coverage 
with facilitated access to it, and that effective responds to their 
needs.
    Concern abounds about rationing.--Care, treatment, medications and 
testing, including that for chronic pre-existing health conditions. 
Unserved and underserved communities need reliable connectivity 
technologies to effectively accommodate and benefit from telemedicine, 
tele-health, tele-mental health, tele-dental, and tele-nutrition to 
name a few. Stable reliable internet/broad-band services are essential 
for health, home schooling, higher education, training in the trades, 
and more.
    These deficiencies adversely limit health, education, and 
employment opportunities. In addition to care, treatment, and dire 
testing shortages, medication shortages are also on the rise. 
Addressing the overall twin conditions: Coronavirus and on-going health 
needs of people in public housing, nursing homes, prisons, assisted 
living, the homeless, and similarly-situated environments is paramount.
                 data collection analysis and reporting
     extent of the coronavirus: provide data collection, analyses, 
                       monitoring, and reporting
    Racial and ethnic health disparities are well known to Federal, 
National, State, local leaders, officials, and community gate-keepers 
and agencies. Data must be collected and documented at point of medical 
system and testing entry. Agencies must collect, analyze, monitor, and 
publicly report coronavirus racial and ethnic demographic data. Months 
into the coronavirus pandemic and National emergency race and ethnic 
data are insufficient to appropriately inform the medical, the Nation's 
and community's response to the deadly and highly contagious 
coronavirus.
    The Department of Health and Human Services and its agencies must 
collect, compile, analyze, release, and report race and ethnic 
demographic data including but not limited to that on cases, deaths, 
location, zip code, outbreaks, hospitalizations, and testing. Data is 
extremely limited and seriously life-threatening-insufficient. 
National, State, and local coronavirus reporting must be accurate, 
timely, complete, and transparent. Additionally, data is an essential 
factor helping to identify where services and resources must be 
targeted and concentrated. Testing, care, and treatment data help 
inform efforts to improve outcomes.
                               workforce
    Provide Hazardous Pay, Worker Protections, and Whistle-Blower 
Protections.--Provide hazardous pay to coronavirus front-line workers, 
double existing pay/salary. Months into this deadly contagious 
coronavirus the shortages of staff, personal protective equipment, and 
gear continue to place workers and their family at increasing risk for 
disease and death. The front-line workforce includes nurses and 
doctors, non-medical hospital staff; home health and nursing home 
workers; grocery store, postal, transportation, medical technicians, 
meat-packing plant workers; the list goes on and on. Direct OSHA to 
update issue and monitor coronavirus worker protection guidelines. 
Provide whistle-blower protections.
    Coronavirus front-line and essential workers across all fields must 
be paid hazard pay, double current pay. Every day, they put their life 
on the line to serve the public . . . facing the deadly coronavirus 
head-on without hazardous pay. Months into this deadly pandemic, 
despite dire working conditions, still the full powers of the DPA have 
not been released and that deficiency has now spilled over into the 
extreme deadly shortage of coronavirus tests. Essential materials, 
equipment, test and test material remain in short supply including 
medical equipment, cleaning supplies, gowns, gloves, masks, and 
medications.
                           care and treatment
    Establish Coronavirus Community Access Points.--Because of the 
highly contagious nature of COVID-19, the fact that it may spread 
before the individual becomes symptomatic, the severity of its illness, 
and the fact that many individuals will be at risk of becoming infected 
for years to come, the health system must adopt modifications 
immediately to respond to medical, mental health, social determinant 
requirements, and complications stemming from coronavirus in immediate, 
short-, and long-term.
    Without National testing and within it African American priority is 
testing, the coronavirus is more deadly for all. Community Access 
Points must be developed to provide unserved and underserved 
communities with sites which will be: Highly accessible loci for 
services and for the provision of information regarding COVID-19; sites 
providing immediate testing and informing of virus status; care entry 
points for those testing positive; and loci for isolating, counseling, 
and contact tracing staff in the community. [Test-trace-treat-isolate-
repeat.]
    Access points must have separate waiting areas for patients and 
address (treat, manage, and control) pre-existing chronic health 
conditions. These facilities must have: Up-to-date laboratory test and 
equipment; access to the most up-to-date COVID-19 information provided 
by DHHS; ability to diagnose and quickly report COVID-19 status; a 
waiting room separate from non-COVID-19 patients; and ability to 
transport positive patients to an in-patient facility which serves 
symptomatic COVID-19 patients. Staffing team minimum requirements: A 
physician or nurse practitioner; nurse, technicians, counselor with 
social work training; and contact tracing staff. The unit/entity/
facility should be located on the site of an established community 
health facility and operated by that facility collaborating with local 
or State health departments.
    Establish Prison Coronavirus Systems.--The Federal Bureau of 
Prisons must develop a coronavirus plan for each of its regions. Each 
plan must specify mechanisms for: Identifying positive staff and 
inmates; separation of positive staff and inmates from the general 
population; isolation, contact tracing, and also on-going 
identification of staff and inmates missed in the initial screening; 
and screening of all incoming staff and new inmates and separation of 
positives.
    Collaborating with State health departments for contact tracing 
purposes.--Each region must designate a COVID-19 coordinator, 
preferably a physician. A COVID-19 counselor must be designated within 
the staff of each prison's clinical facility. This counselor must have 
direct communication with the regional coordinator. Regions must also 
designate a clinical facility for patients who must be hospitalized and 
specific systems for transportation to the facility and management of 
the hospitalized inmates.
    State Grants.--Make grants to each State to develop systems to 
manage COVID-19 within its prisons. Each plan must specify mechanisms 
for: Identifying positive staff and inmates; separation of positive 
staff and inmates from the general population; contact tracing; and on-
going identification of staff and inmates missed in the initial 
screening; and screening of all incoming staff and new inmates and 
separation of positives. Collaborating with the State health department 
for contact tracing purposes: States must designate a COVID-19 
coordinator, preferably a physician, for its prison system. A COVID-19 
counselor must be designated within the staff of each prison's clinical 
facility. This counselor must have direct communication with the 
State's coordinator. States must also designate a clinical facility for 
patients who must be hospitalized and specify specific systems for 
transportation to the facility and management of the hospitalized 
inmates. Oversight of these State systems must be shared by the Federal 
Bureau of Prisons and the Department of Health and Human Services. 
[Test-trace-treat-isolate-repeat.]
               small businesses and community investment
    Provide for Small Businesses.--Continuing to struggle, African 
American businesses are among the hardest hit. Low cash and weaker 
banking connections threaten their existence as they compete for PPP 
against much larger businesses. The combination compounding crises 
income, pay checks, unemployment insurance, job instability, and others 
seriously threaten small businesses and their staff. The disadvantage 
conditions collide and escalate in the coronavirus National emergency 
requiring automatic triggers and pathways to help save families and 
businesses during this National emergency that is no fault of their 
own. They did not choose the deadly coronavirus health and financial 
crises.
    Invest in Community Development.--Increase investments in jobs 
(with living wages); quality education Pre-K through 12th grade; safe 
schools; meaningful employment training; job creation and placement; 
entrepreneurial opportunities; creation of avenues for innovation; 
grocery stores and transportation; business development, growth and 
sustainability; safe affordable housing; convenient access to quality 
affordable health care; safe communities; and affordable quality day 
care.
    These interlinking investments are absolutely essential for viable 
productive communities. Establish and make available to communities a 
team of Federal Government experts from Department of Justice, to 
Department of Education, DHHS to EPA, to Office of Preparedness and 
Response, to Department of Labor, SBA, DHS, and others to work in 
partnership with local agencies, community leaders, business, and 
others. Provide technical assistance focused on helping communities 
identify and establish linkages and partnerships with business and 
industry. Fund at such sums as necessary.
    Community Empowerment Zones.--Provide community partnership grants 
to establish community empowerment zone programs in communities that 
disproportionately experience over-policing. Funding provided for Black 
communities that seek to improve economic, race relations, health, 
education, environment, and policing to help reduce disparities, and 
other highly coronavirus-vulnerable communities. Assist community in 
accessing Federal programs; to obtain and coordinate the efforts of 
governmental and private entities regarding the elimination of racial 
and ethnic justice disparities and over-policing crisis.
    Communities to be served by the empowerment zone program are those 
that disproportionately experience over-policing and economic 
opportunity deserts. The community establishes an empowerment zone 
coordinating committee: Determine priorities, establish measureable 
outcomes, obtain technical assistance, and utilize but not limited to 
community and evidence-based strategies including goals, management, 
implementation, monitoring, assessment, and evaluation. Submit to the 
Congress community empowerment zone reports. Fund at such sums as 
necessary.
                         training and education
    Conflict Resolution Training.--Include conflict resolution in the 
education curriculum Pre-K through 12. The techniques learned in 
conflict resolution training would be beneficial across the life span. 
They would be helpful in encounters with police and all other 
relationships. Fund at such sums as necessary.
    Expand Academic Opportunity and Achievement.--Have school systems, 
courts, and police work with the community and academic institutions to 
implement mentorship programs focused on youth including troubled youth 
to provide them with insight and opportunity to better benefit from the 
powerful value of education and training beyond high school. Tie 
college and training scholarships to these programs, and help to ensure 
that free community college becomes a real accessible opportunity. This 
investment in the individual's and America's future helps to further 
innovation, entrepreneurial development, research, business, industry, 
and technology advances on all fronts in all fields. Fund at such sums 
as necessary.
    Provide Summer Enrichment and After-school Programs.--After-school 
and summers is the most unsupervised period of time facing latchkey 
children and teenagers. Effective programs must be implemented that 
provide that supervision ranging from summer jobs, to summer education 
and training, to sports and arts, to innovation and business, to 
enrichment programs and Junior Achievement. For young children, provide 
summer Pre-K. Overall, programs must also provide meals and 
transportation for those in need. Fund at such sums as necessary.
    Establish National Teaching-Learning-Tutoring Corp [Establish, 
Provide, Conduct, Monitor, and Fine-tune as necessary].--Provide 
students and parents the academic assistance needed to bring students 
up to grade level and beyond. This must be a joint goal. The portfolio 
must include but is not limited to materials, computers, technologies, 
skilled supplemental personnel and other resources needed. Students and 
parents must not be penalized for the education and stress crises 
created by the Pandemic. Additionally, establish a family support hot-
line professionally staffed to address family stress, mental and 
behavioral health control, and management support.
    Compile, train, and provide techniques and exercises that parents 
and students need to help control and manage stress.--Also, identify 
and provide parents and students the privacy tools needed to help keep 
on-line schooling and socializing safe. Remain mindful that our 
Nation's children and parents sudden thrust into full-scale home 
schooling, on-line learning/educating has placed students at increased 
academic disadvantage and to successfully close the void they must be 
provided the necessary resources. Fund at such sums as necessary. 
Additionally, increased on-line use by the elderly also places them at 
increased on-line fraud. Fund at such sums as necessary.
                    enhance community participation
    State and Local Offices on Community Relations.--Establish Offices 
on Community Relations to help communities empower themselves: Make 
available technical expertise, linkages, and resources. Create and make 
available community relations improvement resource tool kits that 
communities can tailor to fit their needs.
    Voting.--The African American Health Alliance would be remiss to 
not highlight voting. Voting no matter what form or forms it takes must 
be protected, voter-friendly and facilitated, and funded at such sums 
as necessary. Voter registration and rolls must also be respectively 
facilitated and protected. Every vote counts and must be counted. Also, 
as a Nation, we can and must improve the response to all aspects of the 
coronavirus National emergency. The response deficiencies are life 
threatening especially for Blacks and others at high risk. Clearly, 
everyone must be a part of the solution to the Nation's emergencies 
racism, policing, COVID, and the economy.
    In closing, Mr. Chairman, Ranking Member, and Members of the 
subcommittee our collective purpose must hold us accountable to the 
reality that we are all in this together and we must do our part. As 
Dr. King's quote continues to remind us: ``We are caught in an 
inescapable network of mutuality, tied in a single garment of destiny. 
Whatever affects one directly, affects all indirectly.''--Martin Luther 
King Jr.,
                           why we can't wait
    The coronavirus pandemic requires a comprehensive National 
response. The African American Health Alliance thanks you for this 
opportunity to provide testimony for the record and recommendations. We 
deeply appreciate your on-going leadership and support. Black lives do 
matter.

    Mr. Payne. With that, I want to thank the witnesses one 
more time for their valuable testimony and Members for their 
questions.
    The Members of the subcommittee may have additional 
questions for the witnesses, and we ask that you respond 
expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 1:44 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions From Chairman Donald M. Payne, Jr. for Georges C. Benjamin
    Question 1. As the number of COVID-19 cases continue to rise in the 
Southern and Western States, what new health disparities might we 
observe as compared to the earlier outbreak in March and April?
    Answer. Response was not received at the time of publication.
    Question 2. What can the Federal Government do to help close 
testing disparities among minority and disadvantaged populations?
    Answer. Response was not received at the time of publication.
    Question 3. What can the Federal Government do to help close PPE 
disparities among minority and disadvantaged populations?
    Answer. Response was not received at the time of publication.
    Question 4. This administration has consistently undermined public 
health official messaging during this emergency. What are the potential 
impacts of this mixed messaging during a National emergency?
    Answer. Response was not received at the time of publication.
       Questions From Chairman Donald M. Payne, Jr. for Leana Wen
    Question 1. As the number of COVID-19 cases continue to rise in the 
Southern and Western States, what new health disparities might we 
observe as compared to the earlier outbreak in March and April?
    Answer. Response was not received at the time of publication.
    Question 2. What can the Federal Government do to help close 
testing disparities among minority and disadvantaged populations?
    Answer. Response was not received at the time of publication.
    Question 3. What can the Federal Government do to help close PPE 
disparities among minority and disadvantaged populations?
    Answer. Response was not received at the time of publication.
    Question 4. This administration has consistently undermined public 
health official messaging during this emergency. What are the potential 
impacts of this mixed messaging during a National emergency?
    Answer. Response was not received at the time of publication.
    Questions From Chairman Donald M. Payne, Jr. for Chauncia Willis
    Question 1. What can the Federal Government do to help close 
testing disparities among minority and disadvantaged populations?
    Answer. Response was not received at the time of publication.
    Question 2. What can the Federal Government do to help close PPE 
disparities among minority and disadvantaged populations?
    Answer. Response was not received at the time of publication.
    Question 3. This administration has consistently undermined public 
health official messaging during this emergency. What are the potential 
impacts of this mixed messaging during a National emergency?
    Answer. Response was not received at the time of publication.
    Question 4. How can FEMA ``operationalize equity'' so that its 
crisis responses are more equitable?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
